APPENDIX

TABLE OF APPENDICES
Appendix A
Summary Order of the United States
Court of Appeals for the Second Circuit,
Consumer Fin. Prot. Bureau v. RD Legal
Funding LLC, No. 18-2743-cv (L)
(Oct. 30, 2020) .............................................. App-1
Appendix B
Opinion & Order of the United States
District Court for the Southern District of
New York, Consumer Fin. Prot. Bureau v.
RD Legal Funding, LLC, No. 17-CV-890
(June 21, 2018) ............................................ App-5
Order of the United States District Court
for the Southern District of New York
Amending June 21, 2018 Opinion,
Consumer Fin. Prot. Bureau v. RD Legal
Funding,
LLC,
No.
17-CV-890
(Sept. 12, 2018) .......................................... App-96
Appendix C
Order of the United States Court of
Appeals for the Second Circuit Denying
Rehearing, Consumer Fin. Prot. Bureau
v. RD Legal Funding LLC, No. 18-2743cv (L) (Jan. 14, 2021) ............................... App-103

ii
Appendix D
Relevant Provision & Statutes
U.S. Const. art. II, § 1, cl. 1 ..................... App-105
12 U.S.C. § 5491(c) .................................. App-106
12 U.S.C. § 5562 ...................................... App-107
12 U.S.C. § 5564 ...................................... App-122
12 U.S.C. § 5565 ...................................... App-126

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________
Nos. 18-2743-cv(L)
18-3033 (Con), 18-2860 (XAP), 18-3156 (XAP)
________________
CONSUMER FINANCIAL PROTECTION BUREAU,
Plaintiff-Appellant-Cross Appellee,
PEOPLE OF THE STATE OF NEW YORK, by Letitia
James, Attorney General for the State of New York,
Plaintiff-Appellant-Cross Appellee,
v.
RD LEGAL FUNDING, LLC, RD LEGAL FUNDING
PARTNERS, LP, RD LEGAL FINANCE, LLC,
RONI DERSOVITZ,
Defendants-Third Party Plaintiffs-Third
Party Defendants-Appellees-Cross
Appellants.
________________
Filed October 30, 2020
Document 253-1
Appeal from the United States District Court for the
Southern District of New York (Preska, J.)
________________
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER
JANUARY 1, 2007, IS PERMITTED AND IS

App-2
GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL
RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A
PARTY MUST CITE EITHER THE FEDERAL
APPENDIX OR AN ELECTRONIC DATABASE
(WITH THE NOTATION “SUMMARY ORDER”). A
PARTY CITING A SUMMARY ORDER MUST
SERVE A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 30th day of October,
two thousand twenty.
PRESENT: BARRINGTON D. PARKER,
DENNY CHIN,
Circuit Judges,
JANE A. RESTANI,
Judge. *
***
UPON
DUE
CONSIDERATION,
IT
IS
ORDERED, ADJUDGED, AND DECREED that the
judgment of the district court is VACATED and the
case is REMANDED for further proceedings
consistent with this Order.
Plaintiffs-appellants
Consumer
Financial
Protection Bureau (the “CFPB”) and the State of New
York (the “State”) appeal from a judgment of the
* Judge Jane A. Restani, of the United States Court of
International Trade, sitting by designation.

App-3
United States District Court for the Southern District
of New York entered October 29, 2018 dismissing their
federal and state law claims against defendantsappellees RD Legal Funding, LLC; RD Legal Finance,
LLC; RD Legal Funding Partners, LP (collectively,
“RD”); and Roni Dersovitz (together with RD,
“defendants”). By memorandum opinion and order
entered June 21, 2018, as amended by its September
12, 2018 Order, the district court granted defendants’
motion to dismiss. We assume the parties’ familiarity
with the underlying facts, the procedural history of the
case, and the issues on appeal.
We review de novo a district court’s grant of a
motion to dismiss. See Hernandez v. United States,
939 F.3d 191, 198 (2d Cir. 2019). The CFPB is headed
by a Director, who is appointed by the President with
the advice and consent of the Senate for a five-year
term, during which time “[t]he President may remove
the Director for inefficiency, neglect of duty, or
malfeasance in office.” 12 U.S.C § 5491(b)-(c) (the
“forcause removal provision”). The district court held
that
this
for-cause
removal
provision
is
unconstitutional, and that the removal provision is not
severable from the remainder of the Consumer
Financial Protection Act (the “CFPA”) or Title X of the
Dodd-Frank Wall Street Reform and Consumer
Protection Act, Pub. L. No. 111-203, 124 Stat. 1376
(2010). Accordingly, the district court struck the
entirety of the CFPA. The district court also held that
then-acting CFPB Director Mick Mulvaney’s May 11,
2018 ratification of the CFPB’s enforcement action
against defendants failed to cure the constitutional
deficiencies in the CFPB’s structure or otherwise
render defendants’ arguments moot.

App-4
On June 29, 2020, the Supreme Court struck
down the for-cause removal provision on the basis that
it violates the separation of powers, but additionally
held that the removal provision is severable from the
remainder of the CFPA. See Seila L. LLC v. Consumer
Fin. Prot. Bureau, 140 S. Ct. 2183, 2192 (2020).
Following Seila, now-acting CFPB Director Kathleen
L. Kraninger ratified the enforcement action on July
8, 2020.
In light of these developments, we affirm the
district court’s holding that the for-cause removal
provision is unconstitutional, we reverse the district
court’s holding that the for-cause removal provision is
not severable from the remainder of the CFPA, and we
remand for the district court to consider in the first
instance the validity of Director Kraninger’s
ratification of this enforcement action. See Seila, 140
S. Ct. at 2208 n.12. 1
***
For the foregoing reasons, we VACATE the
judgment of the district court and REMAND the case
for further proceedings.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

1 We do not reach defendants’ other arguments, including, for
example, that RD Legal does not qualify as a “covered person”
under the Dodd-Frank Act.

App-5
Appendix B
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK
________________
No. 17-cv-890 (LAP)
________________
CONSUMER FINANCIAL PROTECTION BUREAU and
THE PEOPLE OF THE STATE OF NEW YORK,
by Eric T. Schneiderman, Attorney General
for the State of New York,
v.

Plaintiffs,

RD LEGAL FUNDING, LLC; RD LEGAL FINANCE, LLC;
RD LEGAL FUNDING PARTNERS, LP; RONI DERSOVITZ,
Defendants.
________________
Filed June 21, 2018
Document 80
________________
OPINION & ORDER
***
Loretta A. Preska, Senior United States District
Judge:
This is an action by Plaintiffs Consumer Financial
Protection Bureau (the “CFPB”) and the People of the
State of New York, by Eric T. Schneiderman, Attorney
General for the State of New York (“NYAG” or the
“Attorney General”) (collectively, the “Government”),
against Defendants RD Legal Funding, LLC; RD
Legal Finance, LLC; RD Legal Funding Partners, LP
(collectively, the “RD Entities”); and Roni Dersovitz,

App-6
the founder and owner of the RD Entities (together
with the RD Entities, the “Defendants”). The
Government asserts that the Defendants violated
certain provisions of the Consumer Financial
Protection Act (“CFPA” or the “Act”). NYAG
independently asserts that the RD Entities are liable
under New York law for the same actions and events
that form the basis of the CFPA claims. Defendants
move to dismiss the Complaint (ECF No. 1) on three
principal grounds. First, Defendants argue that the
CFPB is unconstitutionally structured and therefore
lacks the authority to bring claims under the CFPA.
Second, Defendants contend that the Court lacks
federal jurisdiction because the RD Entities are not
“covered persons” under the CFPA and therefore do
not come within the Act’s jurisdictional purview. Third
and finally, the RD Entities move to dismiss the
Complaint pursuant to Rule 12(b)(6) of the Federal
Rules of Civil Procedure for failure to state a claim for
relief.
As set out below, because the CFPB’s structure is
unconstitutional, it lacks the authority to bring claims
under the CFPA and is hereby terminated as a party
to this action. The NYAG, however, has independent
authority to bring claims under the CFPA. The Court
concludes that NYAG has alleged plausibly claims
under the CFPA and under New York law.
Accordingly, Defendants’ motion to dismiss the
Complaint is denied. (ECF No. 39.)
I. Factual Background
The following facts are drawn from the
Complaint, (Complaint (“Compl.”), ECF No. 1), the
Assignment and Sale Agreements (hereinafter the

App-7
“Purchase Agreements”) attached as exhibits to the
Affidavit of Roni Dersovitz, (Affidavit of Roni
Dersovitz (“Dersovitz Aff.”), Exs. A-1 to A-20, B-1 to B5, ECF No. 41-1), and the National Football League
(“NFL”) Concussion Litigation Settlement Agreement
(“NCLSA”), (Dersovitz Aff. Ex. 6), which Defendants
attached to their motion to dismiss. The allegations in
the Complaint are accepted as true for purposes of the
instant motion. 1
The CFPB and NYAG bring this action against
the RD Entities and their founder and owner, Roni
Dersovitz. (Compl. ¶¶ 15-19.) The RD Entities are
As Defendants note in their motion to dismiss, “[t]he Court
may consider the Zadroga Fund agreements [(Dersovitz Aff. Exs.
A-1 to A-20)], and the NFL Settlement Fund agreements
[(Dersovitz Aff. B-1 to B-5)], because the Complaint refers to
them extensively and ‘relies heavily upon [their] terms and effect,
which renders the document[s] integral to the complaint.’”
Chambers v. Time Warner, Inc., 282 F.3d 147, 152-53 (2d Cir.
2002) (citation and some internal quotation marks omitted);
accord Capela v. J.G. Wentworth, LLC, No. CV09-882, 2009 WL
3128003, at *1 n.2 (E.D.N.Y. Sept. 24, 2009). Furthermore,
according to Defendants, the Purchase Agreements attached as
exhibits to Defendants’ motion to dismiss were among the 218
contracts that Defendants produced to the CFPB pursuant to a
civil investigative demand (“CID”). (Defendants’ Mot. to Dismiss
(“Def. Br.”) 6, ECF No. 49.) Therefore, it is reasonable to assume
that the CFPB relied on these Purchase Agreements in drafting
the Complaint. The Court also notes that, all at once, the
Government objects to the inclusion of the Purchase Agreements
in deciding the instant motion to dismiss (Plaintiff’s Opp’n (“Pl.
Opp.”) 36 n.13, ECF No. 36) but in the same breath relies on the
Purchase Agreement exhibits in support of its arguments in its
opposition briefing. (Pl. Opp. 35-36.) For these reasons, the Court
concludes that the Purchase Agreements are “integral” to the
Complaint and therefore may be considered for purposes of
deciding the instant motion. Chambers, 282 F.3d at 152-53.
1

App-8
companies that offer cash advances to consumers
waiting on payouts from settlement agreements or
judgments entered in their favor. The Government
alleges that Defendants misled these consumers into
entering cash advance agreements that the
Defendants represented as valid and enforceable sales
but, in reality, functioned as usurious loans that were
void under state law. (Compl. ¶ 19.)
At issue in this case are two specific groups of
consumers (collectively, the “Consumers”) with which
the RD Entities transacted: (1) class members in the
National Football League (“NFL”) Concussion
Litigation class action (“NFL Class Members” or
“Class Members”) and (2) individuals (“Eligible
Claimants”) who qualify for compensation under the
September 11th Victim Compensation Fund of 2001
(“VCF”). 49 U.S.C. § 40101.
a. The NFL Class Members
On January 31, 2012, a federal multidistrict
litigation was created in United States District Court
for the Eastern District of Pennsylvania for lawsuits
on behalf of former NFL players who suffer from mild
traumatic brain injury due to playing professional
football. See Settlement Agreement (hereinafter
“Settlement Agreement”) Preamble, In re NFL
Players’ Concussion Injury Litig., MDL No. 2323 (E.D.
Pa. Feb. 13, 2015) (ECF No. 6481-1). Defendants in
that case, the NFL and NFL Properties LLC,
ultimately agreed that settlement of the claims in that
complex putative class action was appropriate. Id.
Recitals (K). Accordingly, on February 13, 2015, a
federal district court in the Eastern District of
Pennsylvania approved the NFL Concussion

App-9
Litigation Settlement Agreement (“NCLSA”) between
the Class Members, by and through class counsel, and
defendants NFL and NFL Properties LLC. Id.
Preamble.
The NFL Class Members at issue in this case are
former NFL players who have been diagnosed with
neurogenerative diseases such as chronic traumatic
encephalopathy (“CTE”), Alzheimer’s, or Parkinson’s
disease and who have received notification of their
entitlement to a settlement award under the NCLSA
for these injuries. (Compl. ¶¶ 22-23.)
b. September 11, 2001 James Zadroga Victims
Compensation Fund Eligible Claimants
In January 2011, President Obama signed the
James Zadroga 9/11 Health and Compensation Act of
2010 (“Zadroga Act”), which served to renew the
September 11th Victim Compensation Fund of 2001
(the “VCF”). 49 U.S.C. § 40101. Congress created the
VCF to provide compensation to individuals and
personal representatives of deceased individuals who
suffered physical injury or were killed as a result of
the September 11, 2001 terrorist attacks or were
harmed during the removal of debris immediately
following those attacks. Proposed Rule, Federal
Register, Vol. 76 No. 119 (Jun. 21, 2011). The Zadroga
Act authorizes a Special Master appointed by the
Attorney General to carry out the administration of
the VCF by enacting substantive and procedural rules,
including making determinations as to what award
amount an eligible individual (“Eligible Claimant”) is
entitled to under the VCF. 28 C.F.R. § 104.51.
According to the Complaint, the Eligible
Claimants with whom the RD Entities transact have

App-10
received an award letter from the VCF’s Special
Master indicating the amount of compensation to
which they are entitled under the VCF. (Compl. ¶¶ 2223); 49 U.S.C. §§ 405(b)(1), 405(c), 406(a). Eligible
Claimants who are entitled to compensation include
individuals who suffer from respiratory illnesses and
cancers related to their exposure to dust and debris at
the World Trade Center site as well as from posttraumatic stress disorder, depression, anxiety
disorder, and memory loss following the September
11th, 2001 terrorist attacks. (Compl. ¶ 22.)
c. The Purchase Agreements
According to the Complaint, after a Consumer has
received final approval and a notice of the award
amount to which he or she is entitled, the RD Entities
offer to take a security interest in the Consumer’s
settlement award or a portion thereof (the “Property”
or “Property Amount”). (Compl. ¶ 20.) In the contracts
that Defendants enter into with Consumers, the RD
Entities purport to “acquire the full risks and benefits
of ownership of the Property and acquire the full right,
title and interest in the Property.” (Def. Br. Ex. 1.) In
exchange, the RD Entities offer Consumers an
immediate “lump sum” cash payment that represents
a portion of the total award to which the Consumer is
entitled. (Compl. ¶ 24.) In return, the Consumer
agrees to repay a larger amount, i.e., the Property
Amount, to the RD Entities after receiving its
settlement payment. (Id.) The Purchase Agreements
contain a no recourse provision that relieves the
Consumer of his or her obligation to repay the RD
Entities in the event that the RD Entities are unable
to recover the settlement award from the Consumer’s

App-11
third-party obligor, i.e., the NFL Settlement Fund or
the VCF. (Def. Br. Ex. 1.)
The RD Entities enter into two types of contracts
with Consumers. Under the first, the RD Entities
advance a lump sum of cash to the Consumer. The
repayment amount that the Consumer owes to RD
remains the same, regardless of when the Consumer
receives the award from the VCF or the NFL
Settlement Fund. (Compl. ¶ 31.) Under the second
type of contract, the amount the Consumer repays
turns on when the claims administrator disburses the
Consumer’s award. The longer it takes for the
Consumer to receive his or her settlement payment,
the more the Consumer owes to the RD Entities. (Id.)
After entering into the Purchase Agreement,
Consumers are obligated immediately to forward any
monies received from the NFL Claims Administrator
or the VCF to the RD Entities until the Consumer has
paid off the agreed-upon amount. (Compl. ¶ 26.) After
the amount due under the agreement has been paid to
the RD Entities, the Consumer is entitled to keep any
balance in excess of that amount that he or she
receives from the NFL Settlement Fund or VCF
Claims Administrator. (Id.)
d. Claims Against the RD Entities
i.

CFPA Claims

The Complaint alleges five CFPA claims against
the RD Entities: (1) Count I alleges that the RD
Entities engaged in deceptive acts or practices, 12
U.S.C. §§ 5531(a), 5536(a)(1)(B), by misrepresenting
that the Purchase Agreements constituted valid and
enforceable assignments and that Dersovitz
knowingly or recklessly provided substantial

App-12
assistance to the RD Entities in carrying out these
violations, 12 U.S.C. § 5536(a)(3) (Compl. ¶ 63);
(2) Count II alleges that the RD Entities engaged in
abusive acts or practices, 12 U.S.C. §§ 5531(d),
5536(a)(1)(B), by misrepresenting that the Purchase
Agreements constituted valid and enforceable
assignments and that Dersovitz knowingly or
recklessly provided substantial assistance to the RD
Entities in carrying out these violations, 12 U.S.C.
§ 5536(a)(3) (Compl. ¶¶ 72-73); (3) Count III alleges
that the RD Entities engaged in deceptive acts or
practices, 12 U.S.C. §§ 5531(a), 5536(a)(1)(B), by
misrepresenting that they could “cut through red
tape” and expedite a Consumer’s award payment
when in fact they could not and that Dersovitz
knowingly or recklessly provided substantial
assistance to the RD Entities in carrying out these
violations, 12 U.S.C. § 5536(a)(3) (Compl. ¶ 79);
(4) Count IV alleges that the RD Entities engaged in
deceptive acts or practices, 12 U.S.C. §§ 5531(a),
5536(a)(1)(B), by misrepresenting when the RD
Entities would deliver Consumers’ cash payments
because, in some instances, the RD Entities made
payment after the promised payment date, and that
Dersovitz
knowingly
or
recklessly
provided
substantial assistance to the RD Entities in carrying
out these violations, 12 U.S.C. § 5536(a)(3), (Compl.
¶ 86); and (5) Count V alleges that the RD Entities
engaged in deceptive acts or practices, 12 U.S.C.
§§ 5531(a), 5536(a)(1)(B), by collecting on contracts
that functioned as loans with usurious interest rates
under state law and on which no payment was due,
and that Dersovitz knowingly or recklessly provided
substantial assistance to the RD Entities in carrying

App-13
out these violations, 12 U.S.C. § 5536(a)(3). (Compl.
¶ 93.)
ii.

Claims Arising Under New York Law

The NYAG brings independently various claims
arising under New York law, each of which is asserted
against each of the named Defendants: Count IX
asserts a claim of deceptive practices under New York
General Business Law (“NY GBL”) § 349 against all of
the named Defendants based on the same alleged
deceptive conduct underlying Counts I, III, IV, and V
of the Complaint, (Compl. ¶¶ 119-22); Count X asserts
a claim of false advertising against all of the named
Defendants under NY GBL § 350 based on the RD
Entities’ alleged misrepresentations that the
transactions at issue were sales, not loans, and that
the RD Entities had the ability to expedite payment of
Consumers’ awards when in fact they did not, (Compl.
¶¶ 123-26); Count XI asserts a claim under New York
Executive Law § 63(12) for fraudulent conduct based
on the same factual allegations underlying Counts I-V
of the Complaint (Compl. ¶¶ 127-30); Counts VI and
VII allege that, through the Purchase Agreements,
Defendants charged Consumers rates of interest that
violated New York’s civil and criminal usury laws,
N.Y. Banking Law § 14-a, and N.Y. Penal Law
§§ 190.40 and 190.42, respectively (Compl. ¶¶ 99-105,
106-10); and finally, Count VIII alleges that
Defendants violated New York General Obligations
Law (“NY GOL”) § 13-101 because they entered into
contracts that constituted an unlawful assignment of
individual claims to recover for personal injuries
under New York law. N.Y. Gen. Oblig. Law § 13-101;
(Compl. ¶¶ 111-18.)

App-14
II. Procedural History
The instant case has a circuitous history in this
Court. In January 2017, RD Legal Funding, LLC filed
a complaint against the CFPB in the Southern District
of New York seeking relief in the form of, inter alia, a
declaration that the purchase of legal receivables from
customers are true sales and that, therefore, RD Legal
Funding, LLC’s business is not within the CFPB’s
jurisdiction. RD Legal Funding, LLC v. Consumer Fin.
Prot. Bureau, No. 17-cv-00010 (LAP) (S.D.N.Y.) (ECF
No. 1); (Def. Br. 7.) According to Defendants, RD Legal
Funding, LLC filed that action in response to civil
investigative demands (“CID”) that the CFPB served
on RD Legal Funding, LLC as well as a formal request
from the CFPB to depose an RD Legal Funding, LLC
representative in connection with the CFPB’s
investigation of the RD Entities. (Def. Br. 6.)
Two days after filing suit in federal court against
the CFPB, RD Legal Funding Partners, LP and RD
Legal Funding, LLC filed a similar suit in New York
state court against NYAG seeking a declaration that
the VCF Purchase Agreements are true sales. RD
Legal Funding, LLC, et al. v. Schneiderman, et al.,
No. 17-cv-00681 (LAP) (S.D.N.Y.) (ECF No. 1).
Following RD Legal Funding, LLC and RD Legal
Funding Partners, LP’s actions against the CFPB and
NYAG in this Court and New York state court, the
CFPB and NYAG filed this enforcement action against
the RD Entities on February 7, 2017. (ECF No. 1.) On
May 15, 2017, the RD Entities moved to dismiss the
Complaint on several grounds, including lack of
federal
jurisdiction
due
to
the
CFPB’s
unconstitutional structure, the CFPB’s lack of

App-15
jurisdiction over the RD Entities as “covered persons”
under the CFPA, and for failure to state a claim on
which relief can be granted pursuant to Rule 12(b)(6)
of the Federal Rules of Civil Procedure. (ECF No. 39.)
In July 2017, class counsel for the NFL Class
Members requested that this Court allow it to file an
amicus brief in opposition to the RD Entities’ motion
to dismiss or, in the alternative, that determination of
the validity of the assignment provisions in the NFL
Purchase Agreements be referred to United States
District Court for the Eastern District of
Pennsylvania. (ECF No. 45.) Class counsel stated that
it believed referral of this question to the Eastern
District of Pennsylvania would be appropriate because
that court has continuing jurisdiction over the
administration and interpretation of the NCLSA.
(Id.); see also Settlement Agreement § 27.1 (“The
Court retains continuing and exclusive jurisdiction
over this action including jurisdiction over . . . all
Settlement Class Members . . . .”). Class counsel
explained that referral of this question would ensure
uniformity of adjudication through “a single up-ordown ruling that [would] apply not only to Defendants
in this action but also to other potential lenders to
class members who might assert the same defense.”
(Id.) Because interpretation of the NCLSA’s terms
falls squarely within “the administration and
interpretation of the [NCLSA]” and referral would
promote judicial economy, this Court concluded that
referral of the anti-assignment clause question to the
Eastern District of Pennsylvania was appropriate.
(ECF No. 59.) On September 15, 2017, this Court
referred the assignment question to the Honorable
Anita B. Brody in the Eastern District of

App-16
Pennsylvania, who was presiding over the NFL
Concussion Litigation. (ECF No. 60.)
On December 8, 2017, Judge Brody issued an
Explanation and Order which concluded that the antiassignment clause in the NFL Concussion Litigation
Settlement Agreement “unambiguously prohibits”
NFL class members “from assigning or attempting to
assign any monetary claims [under the NFL
Settlement Agreement],” thereby rendering “any such
purported assignment . . . void, invalid and of no force
and effect” under New York law. See Explanation and
Order (hereinafter, “Explanation and Order”), In re
NFL Players’ Concussion Injury Litig., No. 2:12-md2323-AB (E.D. Pa. Dec. 8, 2017) (ECF No. 9517) (citing
Neuroaxis Neurosurgical Assocs., P.C. v. Costco
Wholesale Co., 919 F. Supp. 2d 345, 352 (S.D.N.Y.
2013)). In New York, an anti-assignment clause is
enforceable only if it contains “clear, definite and
appropriate language” restricting the assignment of
money due under the contract. Allhusen v. Caristo
Constr. Corp., 103 N.E.2d 891, 893 (N.Y. 1952);
Neuroaxis Neurosurgical, 919 F. Supp. 2d at 352.
Under this framework, Judge Brody concluded that
the term “relating to” in the NCLSA’s anti-assignment
clause, which prohibits Class Members from assigning
claims “relating to the subject matter of the Class
Action Complaint,” encompassed assignment of Class
Members’ claims to settlement awards under the
NCLSA. See Explanation and Order at 3, 4 n.6. In
reaching this conclusion, Judge Brody concluded that
the phrase “relating to” in the NCLSA’s antiassignment clause was “sufficiently express” under
New York law to include assignment of Class

App-17
Members’ claims to settlement awards under the
NCLSA. Explanation and Order at 3-4.
As a result of this finding, Judge Brody held that
Class Members’ Purchase Agreements with the RD
Entities were void. Explanation and Order at 5-6.
Accordingly, she ordered the NFL Class Members to
return to the RD Entities any amount that the RD
Entities had already paid them. Id.
On August 1, 2017, after Defendants filed the
instant motion to dismiss, the American Legal
Finance Association (“ALFA”) moved for leave to file
an amicus curiae brief in opposition to Defendants’
motion to dismiss. The Court granted ALFA’s request,
and ALFA filed its amicus curiae brief on August 15,
2017. (See Br. for ALFA as Amicus Curiae (“ALFA
Br.”), ECF No. 56.)
After receiving briefing from all parties on
Defendants’ instant motion to dismiss, the Court
requested supplemental briefing from the parties on
February 23 and 28, 2018, on two legal questions
pertaining to the VCF Purchase Agreements. (ECF
Nos. 71, 72.) The first question asked what the effect
of the underlying agreement between the Defendants
and Eligible Claimants would be if the Court were to
conclude that the assignments in the VCF Purchase
Agreements were impermissible pursuant to the AntiAssignment Act, 31 U.S.C. § 3727. As a follow-on to
the first inquiry, the Court also asked how the effect
of any such underlying agreement between
Defendants and Eligible Claimants would impact the
Government’s assertion of jurisdiction over the RD
Entities as “covered persons” under the CFPA. (ECF
No. 72.)

App-18
On March 5, 2018, the Government filed a letter
in response to the Court’s February 23 and 28 orders.
(ECF No. 73.) On March 12, 2018, Defendants filed a
letter in response to the Government’s March 5, 2018
letter addressing these issues. (ECF No. 74.)
III. Legal Standard
In considering a motion to dismiss pursuant to
Fed. R. Civ. P. 12(b)(6), a court must “accept the
material facts alleged in the complaint as true and
construe all reasonable inferences in the plaintiff’s
favor.” Phelps v. Kapnolas, 308 F.3d 180, 184 (2d Cir.
2002) (citation and internal quotation marks omitted).
Though a court must accept all factual allegations as
true, it gives no effect to “legal conclusions couched as
factual allegations.” Stadnick v. Vivint Solar, Inc., 861
F.3d 31, 35 (2d Cir. 2017) (quoting Starr v. Sony BMG
Music Entm’t, 592 F.3d 314, 321 (2d Cir. 2010)). “To
survive a motion to dismiss, a complaint must contain
sufficient factual matter, accepted as true, to ‘state a
claim to relief that is plausible on its face.’” Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp.
v. Twombly, 550 U.S. 544, 570 (2007)). “A claim has
facial plausibility when the plaintiff pleads factual
content that allows the court to draw the reasonable
inference that the defendant is liable for the
misconduct alleged.” Iqbal, 556 U.S. at 678. This
“plausibility standard is not akin to a ‘probability
requirement,’ but it asks for more than a sheer
possibility that a defendant has acted unlawfully.” Id.
(citations omitted). Deciding whether a complaint
states a claim upon which relief can be granted is “a
context-specific task that requires the reviewing court
to draw on its judicial experience and common sense.”

App-19
Rahman v. Schriro, 22 F. Supp. 3d 305, 310 (S.D.N.Y.
2014) (quoting Iqbal, 556 U.S. at 679).
In certain circumstances, the court may
permissibly consider documents other than
the complaint in ruling on a motion under
Rule 12(b)(6). Documents that are attached to
the complaint or incorporated in it by
reference are deemed part of the pleading and
may be considered. In addition, even if not
attached or incorporated by reference, a
document “upon which [the complaint] solely
relies and which is integral to the complaint”
may be considered by the court in ruling on
such a motion.
Tolliver v. Lilley, No. 12-cv-971, 2014 U.S. Dist. LEXIS
184770, at *21-*22 (S.D.N.Y. Oct. 24, 2014) (citing
Roth v. Jennings, 489 F.3d 499, 509 (2d Cir. 2007)).
IV. Discussion
In addressing the various arguments that
Defendants assert in support of dismissal, the Court
first addresses Defendants’ contention that this Court
lacks federal jurisdiction to hear the CFPA claims
because the RD Entities are not “covered persons” and
thus do not come within the CFPA’s jurisdictional
reach. Next, the Court addresses Defendants’
argument that the Complaint fails to state a claim on
which relief can be granted pursuant to Rule 12(b)(6).
In line with the doctrine of constitutional avoidance,
the Court addresses Defendants’ constitutionality
argument last.

App-20
a. Federal Jurisdiction
i.

The RD Entities as “Covered Persons”
Under the CFPA

The CFPA regulates “covered person[s] or service
provider[s]” who are engaged in “unfair, deceptive, or
abusive act[s] or practice[s] under Federal law.” 12
U.S.C. §§ 5531(a), 5536(a). The Act defines “covered
person” as “any person that engages in offering or
providing a consumer financial product or service.” 12
U.S.C. § 5481(6)(A). The term “financial product or
service” is defined in relevant part as “extending credit
and servicing loans.” Id. § 5481(15)(A)(i). The CFPA
defines “credit” as “the right granted by a person to a
consumer to [1] defer payment of a debt, [2] incur debt
and defer its payment, or [3] purchase property or
services and defer payment for such purchase.” Id.
§ 5481(7).
The Government asserts four claims of deceptive
acts or practices and one claim of abusive acts or
practices under the CFPA against the RD Entities. Id.
§§ 5531(a), 5536(a)(1)(B); Id. § 5531(d)(1), (2)(B).
Defendants move to dismiss the CFPA deceptive and
abusive acts or practices claims on the grounds that
the RD Entities are not “covered person[s]” under the
CFPA, Id. § 5481(6)(A), and therefore do not come
within the Act’s jurisdictional reach. (Def. Br. 17.)
The Government asserts that the RD Entities are
“covered persons” under the CFPA because they
extend “credit” and service loans. The Government
alleges that the RD Entities engage in this activity
because the assignments in the Purchase Agreements
are void. See N.Y. U.C.C. § 9-408(d)(1); 31 U.S.C.
§ 3727; (Compl. ¶¶ 19, 43, 52-54, 61-69, 70-77.) In

App-21
turn, these agreements do not constitute valid sales of
Consumers’ interest in their settlement awards.
(Compl. ¶¶ 19, 43, 61-69, 70-77.) The Government
argues that the effect of this is to encumber
Consumers with “debt” and an obligation to repay the
RD Entities in spite of what the Purchase Agreements
say. (Compl. ¶¶ 19, 34-43.)
The RD Entities reject this characterization. They
argue that the assignments are legally permissible
and therefore effectuate true sales of Consumers’
interest in their settlement awards. (Def. Reply 5-6.)
Under this approach, the Consumer incurs no
repayment obligation in the event that the RD
Entities are unable to collect the purchased receivable.
(Def. Br. 19.) Therefore, the RD Entities assert that
the consumer incurs “no debt,” “no repayment
obligation,” and that “[t]here is certainly no right
granted to defer payment of a debt” to the Consumer.
(Id.)
Both parties’ arguments as to the Government’s
jurisdiction over Defendants as “covered persons”
turns on the validity of the assignments. If the
assignments are valid, as Defendants suggest, the
entire basis of the Government’s jurisdictional theory
under the CFPA would fall apart.
Accordingly, in deciding whether the RD Entities
are “covered persons” under the CFPA, the Court must
first determine whether the assignments embodied in
the NFL Purchase Agreements and the VCF Purchase
Agreements are valid. 12 U.S.C. § 5481(6)(A).

App-22
1.

The NFL Concussion Litigation
Settlement Agreement Claims

Following the issuance of Judge Brody’s
Explanation and Order that found the assignments in
the NFL Purchase Agreement void based on the
NCLSA’s anti-assignment provision, Defendants filed
a letter in this Court objecting to Judge Brody’s
conclusion. (See ECF No. 62.) As explained below, the
Court rejects Defendants’ arguments in support of
these objections in all respects. Accordingly, the Court
adopts the Explanation and Order’s finding that the
NCLSA’s anti-assignment provision is valid, thereby
rendering the assignments in the NFL-related
Purchase Agreements void.
a.

The NCLSA’s Anti-Assignment
Provision

The express terms of the NCLSA restrict Class
Members’ ability to assign their rights or claims
“relating to the subject matter of the Class Action
Complaint,” Explanation and Order at 2 (citing
Settlement Agreement (hereinafter “Settlement
Agreement”) § 30.1, In re NFL Players’ Concussion
Injury Litig., MDL No. 2323 (E.D. Pa. Feb. 13, 2015)
(ECF No. 6481-1)):
Section 30.1 No Assignment of Claims.
Neither the Settlement Class nor any Class
or Subclass Representative or Settlement
Class Member has assigned, will assign, or
will attempt to assign, to any person or entity
other than the NFL Parties any rights or
claims relating to the subject matter of the
Class
Action
Complaint.
Any
such
assignment, or attempt to assign, to any

App-23
person or entity other than the NFL Parties
any rights or claims relating to the subject
matter of the Class Action Complaint will be
void, invalid, and of no force and effect and
the Claims Administrator shall not recognize
any such action.
Settlement Agreement § 30.1 (emphasis added).
The Government asserts that the assignments in
the NFL Purchase Agreements are void because the
NCLSA’s express terms prohibit class members from
assigning “any rights or claims relating to the subject
matter of the Class Action Complaint,” which include
their interest in their settlement award (or a portion
thereof) under the NCLSA. (Compl. ¶ 35) (emphasis
added). In response, the RD Entities contend that the
NCLSA’s anti-assignment provision violates New
York’s general prohibition of contractual antiassignment clauses2 and, therefore, does not prevent
the NFL Class Members from assigning their rights to
settlement compensation under the NCLSA. (Def. Br.
18-21.)
b.

Legal Standard Regarding the
Scope of the Anti-Assignment
Provision

First, Defendants contend that Judge Brody did
not construe the anti-assignment language “narrowly”
when interpreting the phrase “relating to” as required
under New York law. In particular, they note that the
anti-assignment provision does not specifically
prohibit Class Members from assigning their right to
2 The NFL Concussion Litigation Settlement Agreement
contains a New York choice-of-law provision.

App-24
a settlement award under the NCLSA, and therefore
is not “sufficiently express” to be upheld under New
York law. (ECF No. 62-4 at 10-17); C.U. Annuity Serv.
Corp. v. Young, 722 N.Y.S.2d 236, 236 (N.Y. App. Div.
2001). Defendants also assert that the antiassignment provision’s reference to “the subject
matter of the Class Action Complaint” limits
assignment only of Class Members’ personal injury
claims, not Class Members’ rights to settlement
awards stemming from a later-dated settlement
agreement. (ECF No. 62-1 at 10; ECF No. 62-4 at 1215; ECF No. 62.)
As a matter of policy, New York generally permits
parties to assign their interests unless “the relevant
provision of the contract contains ‘clear, definite, and
appropriate language declaring an assignment
invalid.’” Au New Haven, LLC v. YKK Corp., 210 F.
Supp. 3d 549, 554 (S.D.N.Y. 2016) (quoting Purchase
Partners, LLC v. Carver Fed. Sav. Bank, 914 F. Supp.
2d 480, 505 (S.D.N.Y. 2012)). To this end, New York
law requires that courts construe contractual antiassignment language “narrowly.” (ECF No. 62)
(quoting Au New Haven, 210 F. Supp. 3d at 556).
It is well-settled that, in interpreting a contract’s
terms, courts must give effect to the plain meaning of
its words or terms. This basic principle encompasses
phrases, including “relating to.” State v. Philip Morris
Inc., 813 N.Y.S.2d 71, 75 (N.Y. App. Div. 2006) (“The
terms ‘arising out of,’ and most particularly ‘relating
to,’ certainly evince a broad arbitration clause”), aff’d,
869 N.E.2d 636 (N.Y. 2007).
In relevant part, the term “relate to” is defined as
“to have relationship or connection.” Relate, Merriam

App-25
Webster (May 24, 2018), https://www.merriamwebster.com/dictionary/relate. In accord with its
dictionary definition, courts in New York have given
effect to the plain meaning of the phrase “relating to”
when interpreting contracts in the past. See, e.g.,
Coregis Ins. Co. v. Amer. Health Found., Inc., 241 F.3d
123, 128-29 (2d Cir. 2001) (“The term ‘related to’ is
typically defined more broadly.”); Collins & Aikman
Prods. Co. v. Bldg. Sys., Inc., 58 F.3d 16, 20 (2d Cir.
1995) (discussing that, in the context of arbitration
clauses, the phrase “‘arising out of or relating to th[e]
agreement,’ is the paradigm of a broad clause”).
Rights to settlement awards under the NCLSA
indisputably “relat[e] to the subject matter of the
Class Action Complaint.” As the Explanation and
Order correctly notes, monetary awards under the
NCLSA would not exist but for the events giving rise
to the Class Action Complaint. Explanation and Order
at 3-4. The “relationship” or “connection” between
rights to settlement awards under the NCLSA and the
“subject matter of the Class Action Complaint” is
straightforward.
Defendants’ repeated reliance on Au New Haven,
LLC v. YKK Corp., 210 F. Supp. 3d 549 (S.D.N.Y.
2016), does not help them. There, the Court analyzed
the term “hereunder” in interpreting the scope of a
contractual anti-assignment provision. Id. at 554-56.
In conclusion, the Court gave effect to the “plainlanguage definition” of the word “hereunder” in
finding that a patent, though the subject of the
licensing agreement at issue, did not originate from
the licensing agreement and therefore was not subject
to the bar on assignments of any interest “hereunder.”

App-26
Id. 554-55. Similarly here, the Explanation and Order
gives effect to the plain meaning of the term “relating
to” by employing the same “narrow” interpretation
that the Court invoked in Au New Haven. No
incongruity exists between the standard that Judge
Brody used in interpreting the term “relating to” and
the standard in Au New Haven.
In sum, Judge Brody’s interpretation of the term
“relating to” complies with New York contract law and
basic principles of contract interpretation by giving
meaning to the plain meaning of the phrase.
Accordingly, the Court agrees with the Explanation
and Order’s conclusion. The NCLSA’s terms state
clearly that the anti-assignment provision validly
applies to the assignment of Class Members’ claims to
settlement awards under the NCLSA.
c.

Assignability of “Settlement
Proceeds” Versus “Monetary
Claims”

Defendants also assert that Judge Brody’s
Explanation and Order refers to the assignment of
“monetary claims,” while the Purchase Agreements at
issue purport to assign Class Members’ right to
“settlement proceeds.” (ECF No. 62.) Defendants
argue that the Explanation and Order’s use of the
term “monetary claims” rather than “settlement
proceeds” shows that Judge Brody conflated legally
distinct concepts under New York law. Specifically,
Defendants note that although New York law
prohibits the assignment of claims, it does not
similarly prohibit the assignment of settlement
proceeds. For this reason, Defendants argue that the
Explanation and Order’s findings, which use the term

App-27
“monetary claims,” are inapplicable to the assignment
of “settlement proceeds” at issue in the NFL-related
Purchase Agreements. (ECF No. 62); Explanation and
Order at 3-4.
Defendants’ argument is a combination of mere
word mincing and misconstruction of the law. As to
misconstruction of the law, the assignments in the
NFL-related Purchase Agreements purport to
effectuate a transfer of Class Members’ full ownership
rights and interest in the Property Amount to RD
Legal Finance, LLC. (Dersovitz Aff. Exs. B-1 to B-7.)
Through these Purchase Agreements, RD Legal
Finance, LLC purports to “step into the shoes of the
assignor” and obtain the full right to demand direct
payment of the Property Amount from NFL Monetary
Award Fund through a limited irrevocable power of
attorney. (See Dersovitz Aff. Ex. B-5 at 12.)
Defendants fail to note that the right to demand direct
payment from the NFL Monetary Award Fund in itself
is a “claim” that “clearly encompasses a cause of action
for nonpayment.” Renfrew Ctr. v. Blue Cross Blue
Shield of Central N.Y., Inc., No. 94-cv-1527
(RSP/GJD), 1997 WL 204309, at *4 (N.D.N.Y. Apr. 10,
1997). Although the NCLSA does not define the word
“claim,” the assignment attempts to transfer all of the
Class Members’ rights and interests in the Property
Amount to RD Legal Funding, LLC. (See, e.g.,
Dersovitz Aff. Ex. B-5.) The RD Entities provide no
basis for believing that this bundle of ownership rights
includes anything less than the full benefits of
ownership, and that includes the right to sue the NFL
Monetary Award Fund in the event of nonpayment.
Accordingly, Judge Brody’s Explanation and Order
addresses squarely the scenario at issue in the NFL

App-28
Purchase Agreements by analyzing the assignment of
“monetary claims” under it.
Defendants’ assertion that the NFL Purchase
Agreements are assignments of the “right to
settlement proceeds” under the NCLSA is unavailing.
Defendants cite Grossman v. Schlosser, 244 N.Y.S.2d
749, 749-50 (N.Y. App. Div. 1963), in an attempt to
illustrate that the NFL Purchase Agreements involve
the assignment of “settlement proceeds,” a concept
that is legally distinct from the assignment of a
“claim” for settlement proceeds in New York. In
Grossman, the court held that the “assignment of
proceeds of a [cause of action for personal injury], prior
to its settlement or adjudication, [is] valid and
effectual as an equitable assignment against the
assignor and his attaching creditor.” Id. (emphasis
added). This arrangement gives an equitable assignee
“no legal estate or interest in the fund” but rather
“constitute[s] an equitable lien on the property.”
Matter of Hoffman, 435 N.Y.S.2d 235, 237 (N.Y. Surr.
Ct. 1980); see also In re Mucelli, 21 B.R. 601, 603
(S.D.N.Y. 1982); United States v. Colby Academy, 524
F. Supp. 931, 934 (E.D.N.Y. 1981) (holding that
settlement proceeds are assignable as “an equitable
interest only” and “d[o] not become a legal assignment
until the proceeds have come into existence”)
(applying New York law).
Thus, New York law permits, at most, the creation
of an equitable lien on future settlement proceeds. Id.
“An equitable lien is ‘a right . . . to have a fund, specific
property, or its proceeds, applied in whole or in part to
the payment of a particular debt.’” Bank of India v.
Weg & Myers, 691 N.Y.S.2d 439, 445 (N.Y. App. Div.

App-29
1999). This framework, however, still does not permit
the transfer of an individual’s present ownership
interest in future receivables for damages to recover
for personal injury, which is what the NFL Purchase
Agreements attempt to do, albeit unsuccessfully. Id.
In sum, Defendants’ arguments that assignments
of claims to settlement award funds under the NCLSA
are valid are without merit.
d.

Interpretation of the New York
UCC 3

New York Uniform Commercial Code (“NY UCC”)
§ 9-408(d)(1) establishes a general bar on antiassignment clauses limiting the transfer of “general
intangibles.” N.Y. U.C.C. § 9-408(d)(1). This provision
also enumerates certain exceptions to the general rule
against such clauses. Id. One such exception applies
to “the right to receive compensation for injuries or
sickness as described in 26 U.S.C. § 104(a)(1) and (2),
as amended from time to time.” Id. Section 104(a) of
the Internal Revenue Code excludes certain types of
compensation from gross income, including “the
amount of any damages (other than punitive damages)
received (whether by suit or agreement and whether
as lump sums or as periodic payments) on account of
personal physical injuries or physical sickness[.]” 26
U.S.C. § 104(a)(2).
The RD Entities contend that because the NCLSA
does not specify whether compensation from it
3 The Court notes that this argument was raised for the first
time in Defendants’ letter objecting to the Explanation and
Order’s findings, after the instant motion to dismiss was fully
briefed. (ECF No. 62.)

App-30
qualifies as excludable income under Section 104, the
NY UCC’s exception for restrictions on assignments of
monetary claims for personal injury settlements does
not save the anti-assignment provision as it relates to
“proceeds” from settlement of personal injury claims.
Id. § 104(a); (ECF No. 62.)
It is beyond peradventure that compensation from
the NFL Settlement Agreement constitutes “damages
. . . received . . . on account of personal physical
injuries” under Section 104 of the Internal Revenue
Code. Id. § 104(a)(2). The NCLSA is rooted in the
physical injuries resulting from repeated brain
injuries that retired NFL players experienced while
active in professional football. See Explanation and
Order at 4 n.6.
Accordingly, the NY UCC does not invalidate the
NFL Settlement Agreement’s anti-assignment
provision.
e.

The
NFL-related
Purchase
Agreements Are Void

In sum, the NCLSA validly prohibits the
assignment of NFL Class Members’ monetary claims.
Therefore, the assignments in the NFL Purchase
Agreements are void.
2.

31 U.S.C. § 3727 Invalidates the

Assignment of Compensation Awards from the
VCF The RD Entities and the Government disagree
over whether federal law prohibits the assignment of
compensation that the VCF awards to an Eligible
Claimant. On the one hand, the Government argues
that the Anti-Assignment Act, 31 U.S.C. § 3727,
prohibits assignment of Eligible Claimants’ rights to

App-31
their award amount under the VCF. See 31 U.S.C.
§ 3727 (“Section 3727” or the “Anti-Assignment Act”);
(Pl. Opp. 13-14.) On the other hand, the RD Entities
assert that because the Anti-Assignment Act bars only
the assignment of a substantive claim against the
United States, not the assignment of settlement
proceeds, the assignments in the Purchase
Agreements are permissible. (Def. Reply 5-6.)
Neither of the parties has cited to, and this Court
has not been able to identify, a case addressing
whether the Anti-Assignment Act applies to the VCF
structure instituted by the Air Transportation Safety
and System Stabilization Act, codified at 49 U.S.C.
§ 40101. For the reasons that follow, the Court
concludes that it does.
a.

The Anti-Assignment Act, 31
U.S.C. § 3727

Congress initially enacted the Assignment of
Claims Act, now known as the Anti-Assignment Act,
in 1853. United States v. Kim, 806 F.3d 1161, 1169
(9th Cir. 2015). The Anti-Assignment Act was
intended to:
“(1) [T]o prevent persons of influence from
buying up claims against the United States,
which might then be improperly urged upon
officers of the Government, (2) to prevent
possible multiple payment of claims, to make
unnecessary the investigation of alleged
assignments, and to enable the Government
to deal only with the original claimant, and
(3) to save to the United States defenses
which it has to claims by an assignor by way

App-32
of set-off, counter claim, etc., which might not
be applicable to an assignee.”
In re Ideal Mercantile Corp., 244 F.2d 828, 831 (2d Cir.
1951) (quoting United States v. Shannon, 342 U.S.
288, 291-92 (1952)).
To this end, the Anti-Assignment Act, 31 U.S.C.
§ 3727, imposes restrictions on the assignment of
claims against the United States Government. The
statute defines an assignment as “a transfer or
assignment of any part of a claim against the United
States Government or of an interest in the claim” or
“the authorization to receive payment for any part of
the claim.” Id. Section 3727 permits assignments of a
claim against the United States only after “[1] [the]
claim is allowed, [2] the amount of the claim is
decided, and [3] a warrant for payment of the claim
has been issued.” Id.
i.

“Claim Against the United
States”

The
Anti-Assignment
Act
restricts
the
assignment of “claims against the United States.” Id.
As an initial matter, therefore, the Court must
determine whether an Eligible Claimant’s entitlement
to a monetary award from the VCF is a “claim against
the United States.” Kim, 806 F.3d at 1170.
Although the Anti-Assignment Act does not define
the term explicitly, “[w]hat is a claim against the
United Stated is well understood. It is a right to
demand money from the United States.” Hobbs v.
McLean, 117 U.S. 567, 575 (1886). This interpretation
accords with the term’s dictionary definition, which is
“[t]he assertion of an existing right; any right to
payment or to an equitable remedy, even if contingent

App-33
or provisional . . . [a] demand for money, property, or
a legal remedy to which one asserts a right.” Claim,
Black’s Law Dictionary (10th ed. 2014).
Applying this definition here, an Eligible
Claimant’s monetary award from the VCF is a “claim
against the United States” because it creates a “right
to demand money from the United States” upon
Eligible Claimants’ receipt of their award letter.
Hobbs, 117 U.S. at 575; see also Kim, 806 F.3d at 1171
(“An award of statutory attorney’s fees is, at base, a
right to demand money from the United States.”).
Although the VCF is a unique, if not unprecedented,
legal creature, the Court sees no reason why a
monetary award under the VCF is not a “claim against
the United States.” Hobbs, 117 U.S. at 575; see also
Kim, 806 F.3d at 1171 (quoting United States v. Gillis,
95 U.S. 407, 413 (1877)) (“No language could be
broader or more emphatic than these enactments. The
words embrace every claim against the United States,
however arising, of whatever nature it may be, and
wherever and whenever presented”) (internal
quotation marks omitted).
Defendants argue that the Anti-Assignment Act
only restricts the assignment of substantive claims
against the United States. (Def. Rep. 5.) Applying this
principle here, the RD Entities contend that the VCF
Purchase Agreements assign Eligible Claimants’ right
to proceeds from the VCF rather than Eligible
Claimants’ substantive claims. Therefore, they say,
Section 3727 does not bar these assignments. (Def.
Reply 5); (ECF No. 74.)
In the same way that the RD Entities misconstrue
the legal distinction between the assignment of

App-34
“claims” and the assignment of “proceeds from claims”
with the NFL-related Purchase Agreements, they do
so once more here. Courts have held uniformly that an
individual’s right to receive payment directly from the
United States Government is a substantive claim that
may not be assigned under the Anti-Assignment Act.
See Kim, 806 F.3d at 1170-71 (citing United States v.
Transocean Air Lines, Inc., 386 F.2d 79, 81 (5th Cir.
1967); Kearney v. United States, 285 F.2d 797, 800 (Ct.
Cl. 1961); Pittman v. United States, 116 F. Supp. 576,
580 (Ct. Cl. 1953)).
Consistent with this interpretation, the AntiAssignment Act does not restrict a would-be assignor’s
ability to create a legal obligation to pay a would-be
assignee after the United States Government has paid
the would-be assignor. In this situation, the would-be
assignee could then “enforce[]” the agreement “by suit”
if the would-be assignor did not “recognize” this
agreement “after collection of the money.” Nutt v.
Knut, 200 U.S. 12, 20 (1906) (emphasis added). AntiAssignment Act jurisprudence establishes clearly that
a party is free to enter into an agreement that legally
obligates it with respect to a future payment from the
United States Government after the party has
received the funds. See, e.g., Martin v. Nat’l Sur. Co.,
300 U.S. 588, 595 (1937) (emphasis added) (“After
payments have been collected and are in the hands of
the contractor or subsequent payees with notice,
assignments may be heeded, at all events in equity, if
they will not frustrate the ends to which the [statute]
was directed.”); First Fed. Sav. & Loan Ass’n of
Rochester v. United States, 58 Fed. Cl. 139, 157-58 (Ct.
Cl. 2003) (“The assignee has no claim against the
government. The assignments were of a right to

App-35
proceeds—a contractual arrangement between private
parties.”); Saint John Marine Co. v. United States, 92
F.3d 39 (2d Cir. 1996) (holding contractual obligations
between private parties regarding proceeds from the
United
States
Government
enforceable
but
assignment as against the United States void); In re
Ideal Mercantile Corp., 244 F.2d at 832 (citing
McKenzie v. Irving Tr. Co., 323 U.S. 365, 369 (1945))
(emphasis added) (“[I]t seems clear that an
assignment of a claim against the United States is
enforceable in many cases as between parties to that
assignment, or their successors in interest, after the
Government has paid the claim.”).
Defendants cite to Saint John Marine for the
proposition that the Purchase Agreements are valid
because while “the Anti-Assignment Act ‘voids the
assignment as against the United States, the
assignment remains enforceable as between the
parties to the contract.” (ECF No. 74) (citing Saint
John Marine, 92 F.3d at 45)) (emphasis added). It is
nose-on-the-face plain that the Court of Appeals did
not mean that assignments like the ones at issue here,
which purport to transfer all of Eligible Claimants’
present rights and interests in a portion of their VCF
award, including the right to demand payment
directly from the United States Government, are
permissible under the Anti-Assignment Act. (See Def.
Br. Sec. III(A)(1)(b)) (“The Assignments Give the RD
Entities the Right to Demand Direct Payment from
the Holder of the Funds.”). Rather, the Court of
Appeals was reiterating a well-established legal
principle in Anti-Assignment Act case law: an
assignment that is void as against the United States
under the Anti-Assignment Act “may amount to the

App-36
creation of an equitable lien when the subject matter
of the assignment has been reduced to possession and
is in the hands of the assignor.” Martin, 300 U.S. at
597. This general principle comports with the AntiAssignment Act’s underlying purpose. “The United
States has no need to worry about fraud or any of the
other evils associated with the assignment of claims
against it once the proceeds of the claims have been
reduced to the possession of the purported assignor.”
Kim, 806 F.3d at 1176-77. After the United States
Government has remitted payment to the purported
assignor, the Act’s protective purpose “is not
implicated.” Id. at 1177. Therefore, an equitable lien
on funds to be received in the future from the United
States Government is permissible, but assignment of
a right to collect payment directly from the United
States Government is not.
In sum, the RD Entities’ argument shows too
much by arguing that Defendants purport to contract
for a full ownership interest in a portion of Eligible
Claimants’ award, which plainly includes the right to
demand payment for that portion directly from the
United States Government. (Dersovitz Aff. Ex. A-1 at
16) (letter from RD Entities to VCF Claims Processing
Center demanding payment be made directly to RD
Entities pursuant to Purchase Agreement); (Def. Br.
Sec. III(A)(1)(b)) (“The Assignments Give the RD
Entities the Right to Demand Direct Payment from
the Holder of the Funds.”). “From the beginning . . .
the Anti-Assignment Act has been concerned with
direct payment of claims.” Kim, 806 F.3d at 1176. The
Purchase Agreements purport to transfer Eligible
Claimants’ right to receive payment directly from the
United States Government to the RD Entities. This is

App-37
precisely what the statute governs, and this is not
allowed.
ii.

Statutory Purpose

Having concluded that an award of compensation
under the September 11th VCF constitutes a “claim”
within the meaning of the Anti-Assignment Act, the
Court must next determine whether application of the
Anti-Assignment Act to the VCF’s enabling statute
would advance the statute’s stated objectives before
applying it. Saint John Marine, 92 F.3d at 49; See N.Y.
Guardian Mortgagee Corp. v. Cleland, 473 F. Supp.
422, 434 (S.D.N.Y. 1979) (“[T]here must be some
congruence between the Act and its purposes before it
is applied.”).
In passing the Anti-Assignment Act, Congress
sought to protect the United States Government by
restricting the assignment of claims against it. See
Martin, 300 U.S. at 594 (“The provisions of the statute
making void an assignment or power of attorney by a
Government contractor are for the protection of the
Government.”). As noted above, Congress sought to
limit the United States Government’s exposure to
three potential liabilities:
“(1) [T]o prevent persons of influence from
buying up claims against the United States,
which might then be improperly urged upon
officers of the Government, (2) to prevent
possible multiple payment of claims, to make
unnecessary the investigation of alleged
assignments, and to enable the Government
to deal only with the original claimant, and
(3) to save to the United States defenses
which it has to claims by an assignor by way

App-38
of set-off, counter claim, etc., which might not
be applicable to an assignee.”
In re Ideal Mercantile Corp., 244 F.2d at 831 (quoting
Shannon, 342 U.S. at 291-92).
In spite of the Anti-Assignment Act’s broad
language, courts have held the statute inapplicable
where enforcement would not advance its underlying
purposes. See N.Y. Guardian, 473 F. Supp. at 433-34
(“Despite the broad language of the Act, numerous
exceptions to it have been recognized when [its]
purposes would not be served.”). For example, the
Anti-Assignment Act does not bar involuntary
assignments that occur by operation of law, Saint
John Marine, 92 F.3d at 48, which courts have
interpreted
to
include
“corporate
mergers,
consolidations, and reorganizations,” First Fed. Sav.
& Loan Ass’n of Rochester, 58 Fed. Cl. at 158.
Voluntary assignments for the benefit of creditors,
transfers imposed by judicial order, subrogation, and
corporate reorganizations that result in a transfer of
assets are also situations in which courts have found
the Anti-Assignment Act to be inapplicable. Saint
John Marine, 92 F.3d at 49 (citing Goodman v.
Niblack, 102 U.S. 556 (1880); Keydata Corp. v. United
States, 504 F.2d 1115 (Ct. Cl. 1974); United States v.
Aetna Cas. & Sur. Co., 338 U.S. 366 (1949)).
After weighing the relevant factors, the Court
concludes that application of the Anti-Assignment Act
to 49 U.S.C. § 40101 would further Congress’s intent
in passing the Act. See N.Y. Guardian, 473 F. Supp. at
434.
First, applying the Anti-Assignment Act to
awards under the VCF would allow the United States

App-39
Government the opportunity, if ever necessary, to set
off an Eligible Claimant’s award amount against
preexisting debts owed to the United States. See
Shannon, 342 U.S. at 291-92; Kim, 806 F.3d at 1172.
More significantly, however, application of the
Anti-Assignment Act to 49 U.S.C. § 40101 limits the
possibility of multiple payments of claims, preserves
United States Government resources by eliminating
the need for diligence to validate an alleged
assignment,
and
streamlines
the
VCF’s
administration by requiring the United States
Government to interact with only the original
claimant. See In re Ideal Mercantile Corp., 244 F.2d at
831. The Special Master of the VCF has previously
stated that the potential for fraud is a primary concern
in the administration of the Fund. See September 11th
Victim Compensation Fund, First Annual Status
Report, at 4 (Oct. 2012), https://www.vcf.gov/pdf/VCF
StatusReportOct2012.pdf (“As with any government
program involving compensation, it is crucial that we
implement key protocols to prevent fraud.”). As the
Special Master has noted, “[t]hese efforts are
particularly important given the cap on the total
amount of money available for the Fund.” Id. Limiting
the number of individuals to whom the United States
Government makes award payments under the VCF
would undoubtedly minimize the potential for fraud.
Accordingly, application of the Anti-Assignment
Act to 49 U.S.C. § 40101 and, more specifically, to
monetary awards issued under the VCF would further
the purposes of the Act. Therefore, the AntiAssignment Act applies to claims arising under 49
U.S.C. § 40101.

App-40
iii. The VCF-related Purchase
Agreements Do Not Comply
With the Anti-Assignment
Act’s Requirements
The Anti-Assignment Act allows a party to assign
a claim against the United States only if it is made
after “[1] a claim is allowed, [2] the amount of the
claim is decided, and [3] a warrant for payment of the
claim has been issued.” 31 U.S.C. § 3727(b).
The RD Entities appear to argue that because
they entered into the Purchase Agreements with
Eligible Claimants only “after the Special Master’s
determination of the amount due to the seller, i.e.,
after the claim had been allowed,” (Def. Rep. 6),
Defendants have complied with Section 3727’s
requirements and the assignment is therefore
permissible.
Oddly, the RD Entities do not address their
compliance with the Anti-Assignment Act’s two other
technical requirements. 31 U.S.C. § 3727(b); Kim, 806
F.3d at 1176. However, this is of no event. The Court
of Appeals for the Ninth Circuit has noted that
compliance with Section 3727’s third requirement,
which allows for assignment of claims only after “a
warrant for payment of the claim has been issued,” is
almost impossible given that “the Treasury no longer
uses warrants.” See 31 U.S.C. § 3727(b); Kim, 806 F.3d
at 1169. Because the Government may, at its choosing,
“waive coverage of the Anti-Assignment Acts,” Kim,
806 F.3d at 1169 (quoting Riviera Fin. of Tex., Inc. v.
United States, 58 Fed. Cl. 528, 530 (2003)), the
warrant’s anachronistic character, coupled with
Congress’s inaction in updating the statute’s

App-41
language, gives the Government “the power to pick
and choose which assignments it will accept and which
it will not.” Kim, 806 F.3d at 1169-70. Here, there is
no indication that the United States Government has
waived coverage of the Anti-Assignment Act to 49
U.S.C. § 40101. In addition, neither party has argued
that the RD Entities complied with the AntiAssignment Act’s three requirements under Section
3727(b).
Accordingly, because neither the RD Entities nor
the Government have argued or alleged facts that the
VCF Purchase Agreements comply with Section
3727’s requirements, these assignments are void as
against the United States under 31 U.S.C. § 3727.
3.

Eligible Claimants and NFL Class
Members “Incur[red] Debt” Through
the Purchase Agreements

After addressing the preliminary issue of whether
the VCF and NCLSA permit the assignment of
Consumers’ claims to settlement awards, which they
do not, the Court is able to turn to the crux of the
jurisdictional question presented here: whether the
Purchase Agreements cause Consumers to incur
“debt” such that the RD Entities “extend[] credit”
within the meaning of a “covered person” under the
CFPA. 12 U.S.C. §§ 5481(6)-(7). The RD Entities argue
that, even if the assignments are invalid, this fact
merely renders the Purchase Agreements void and
would not “transform” the Purchase Agreements into
extensions of “credit.” (Def. Br. 18-21.) In its rather
sparse response to this contention, the Government
asserts that because the Purchase Agreements are
invalid, Defendants functionally offer or provide a

App-42
credit transaction in which consumers incur debt and
defer the right to repay. (Compl. ¶ 19.)
In spite of the puzzling paucity of case law
addressing facts similar to those at issue here, the
Court agrees ultimately that the assignments in the
Purchase Agreements are void as against the thirdparty obligors, i.e., the VCF Claims Administrator and
the NFL Settlement Fund, but give rise to a
relationship between Defendants and Consumers in
which the RD Entities “extend[] credit” and the
Consumer incurs “debt” within the meaning of 12
U.S.C. § 5481(6)-(7).
The CFPA defines “credit” as “the right granted
by a person to a consumer to [1] defer payment of a
debt, [2] incur debt and defer its payment, or
[3] purchase property or services and defer payment
for such purchase.” 12 U.S.C. § 5481(7). Although the
CFPA does not define the term “debt,” Black’s Law
Dictionary defines debt, in relevant part, as “a specific
sum of money due by agreement or otherwise.” Debt,
Black’s Law Dictionary (10th ed. 2014). Both parties
rely on case law interpreting whether a transaction
constitutes an extension of “credit” under the CFPA or
other statutes that have substantially similar
definitions of the term “credit.” See 15 U.S.C. § 1602(f)
(Truth in Lending Act (“TILA”)); 15 U.S.C. § 1691(d)
(Equal Credit Opportunity Act (“ECOA”)). None of
those cases, however, involves an assignment that a
court has declared invalid as a matter of law, as is the
situation here.
In Capela v. J.G. Wentworth, LLC, the court held
that a transaction involving a party’s sale and
assignment of its right to structured settlement

App-43
payments for a personal injury claim from Allstate
Settlement Corporation in exchange for an upfront,
lump sum cash payment from a structured settlement
company was a sale, not an extension of “credit” under
TILA. No. CV09-882, 2009 WL 3128003, at *9, 10
(E.D.N.Y. Sept. 24, 2009) (citing 15 U.S.C. § 1601 et
seq.). The court found that the transaction was not
properly classified as a loan because the assignor
“ha[d] no obligation at all to pay the settlement
installments if Allstate fail[ed] to do so” under the
terms of the agreement. Id. Similarly, in Reed v. ValChris Invs., Inc., the court found that a party’s
assignment of his future interest in his father’s estate
to a company called Advance Inheritance, LLC (“AI”)
in exchange for an immediate lump sum cash payment
from AI was not an extension of “credit” under TILA
because, under the transaction’s terms, AI “had no
recourse against Plaintiff if his potential inheritance
was not sufficient to cover his assignment.” No.
11cv371, 2011 WL 6028001, at *2-3 (S.D. Cal. Dec. 5,
2011).
Capela and Reed present facts that are
fundamentally different from those at issue here
because the assignments in those cases were not
declared invalid as a matter of law. In Capela, the
purchaser of the receivables petitioned for and
obtained judicial approval of the transaction pursuant
to New York’s Structured Settlement Protection Act,
N.Y. Gen. Oblig. Law § 5-1701, et seq., in New York
Supreme Court, Suffolk County. Id. at *1. Similarly,
in Reed, the assignment agreement was “filed with the
state probate court” and, although not mentioned
specifically in the case, would have been subject to
judicial approval pursuant to California Probate Code

App-44
§ 11604.5(d)(1)-(h)(1) (West) (amended 2015). Unlike
here, a court reviewed and approved the assignments
at issue in Capela and Reed prior to those plaintiffs
filing suit against the structured settlement
companies. Rather, plaintiffs in Capela and Reed
sought to have the disclosure and protection
requirements of TILA and ECOA applied to their
structured settlement agreements by having them
classified as extensions of “credit” without challenging
the validity of the underlying assignment. Capela,
2009 WL 3128003, at *2; Reed, 2011 WL 6028001, at
*2. Because the assignments at issue in the NFL and
VCF purchase agreements are invalid as a matter of
law, the analyses in Capela and Reed have limited
transferability to this case.
Here, the Court has concluded that the
assignments in the VCF Purchase Agreements and
the NFL Purchase Agreements are void as against the
third-party obligors. 4 The relevant question thus
becomes whether, looking beyond the gloss of the
“assignment and sale” label that the RD Entities have
affixed to the Purchase Agreements, these
transactions constitute an extension of “credit” under
the CFPA as between the Consumers and the RD
Entities.
The assignability of an individual’s future interest in an
estate is an evolving area of law in both California and New York.
See David Horton & Andrea Cann Chandrasekher, Probate
Lending, 126 Yale L. J. 102, 108 (2016) (analyzing empirical
evidence on 594 probate lending transactions in California and
concluding in part that the practice “raise[s] serious fairness
concerns” and “violat[es] . . . [California’s] usury laws on a
massive scale”).
4

App-45
It is well-established that contract interpretation
is the domain of state law. See Capela, 2009 WL
3128003, at *10 (looking to state law to determine
nature of agreement between parties); Kim, 806 F.3d
at 1175 (applying California law to determine nature
of underlying agreement between parties). Therefore,
the Court looks to New York law in interpreting the
nature of the agreement between Consumers and the
RD Entities after peeling away the invalid
assignments and the “assignment and sale” labels
from these transactions. 5 Id.
Under New York law, an assignment of litigation
proceeds takes effect as an equitable lien in favor of
the “assignee.” In re Minor, 482 B.R. 80, 84 (Bankr.
W.D.N.Y. 2012) (quoting Williams v. Ingersoll, 89 N.Y.
508, 519 (N.Y. 1882)). “An equitable lien is ‘a right . . .
to have a fund, specific property, or its proceeds,
applied in whole or in part to the payment of a
particular debt.’” Arbor Realty Funding, LLC v. East
51st St. Dev. Co., 907 N.Y.S.2d 98 (Sup. Ct. 2009)
(quoting Bank of India v. Weg & Myers, 691 N.Y.S.2d
439, 445 (N.Y. App. Div. 1999)) (emphasis added).
Here, because the assignments are void, no
ownership rights are transferred to the RD Entities
under the Purchase Agreements. Rather, the RD
Entities are creditors with a security interest in
Consumers’ future—but already determined—
settlement award amounts under the VCF or NCLSA.
In re Minor, 482 B.R. at 85. By any measure, therefore,
the lump sum cash advance that the RD Entities
5 Defendants accept for purposes of this motion only that New
York law applies for purposes of characterizing the transactions
as sales or loans. (Def. Br. 26 n.10.)

App-46
provide causes Consumers to “incur a debt and defer
its payment” because it is a specific sum of money due
by agreement. See Debt, Black’s Law Dictionary (10th
ed. 2014). The idea that the Consumer’s repayment
obligation is legally “triggered” only upon receipt of
settlement funds from the settlement administrator is
illusory. (Def. Br. 19.) The repayment obligation is
always with the Consumer from the moment the RD
Entities disburse the lump sum cash payment to the
Consumer. To that end, the Consumer “defers”
payment of this debt unilaterally, in spite of
Defendants’ contentions to the contrary. (Def. Br. 19)
(“Cases interpreting analogous federal statutory
definitions of ‘credit’ confirm that, the ‘hallmark of
credit . . . is the right of one party to make deferred
payment.’”) (quoting Reithman v. Berry, 287 F.3d 274,
277-79 (3d Cir. 2002)). The RD Entities’ lump sum
cash advance is “‘an extension of credit, an advance, or
loan . . . with the assignment held over the
[Consumer] as a sort of club or collateral security’”
regardless of whether the third-party obligor remits
payment to the Consumer or not. Missouri ex rel.
Taylor v. Salary Purchasing Co. Inc., 358 Mo. 1022,
1028 (1949) (quoting McWhite v. State, 226 S.W. 542,
543 (Tenn. 1921)).
Bankruptcy courts frequently face the question of
whether a transaction is properly characterized as a
loan or a sale where the purchaser of a receivable must
defend its rights against other creditors in the seller’s
bankruptcy proceeding. Peter V. Pantaleo et al.,
Rethinking the Role of Recourse in the Sale of
Financial Assets, 52 Bus. Law. 159, 160 (1996). To that
end, bankruptcy courts weigh the presence or absence
of certain factors in determining whether a

App-47
transaction is a sale or a loan under New York law.
(Def. Br. 19, 27.) Among the factors that these courts
consider in this analysis is the existence of recourse. If
a buyer retains recourse against the seller, this
indicates that the buyer has assumed less than all of
the ownership rights in a purported sale, thereby
indicating that the transaction is more likely a loan.
See In re Dryden Advisory Group, LLC v. Beneficial
Mut. Sav. Bank, 534 B.R. 612, 620-23 (Bankr. M.D.
Pa. 2015) (applying New York law); Pantaleo, 52 Bus.
Law. at 159 (explaining that “an issue can arise over
whether to view [a] transaction as a sale or a secured
loan” where recourse against the seller exists because
it indicates that “less than all the risks of ownership
[have been] transferred” from seller to buyer).
Courts also look to other factors in making this
determination. For example, an assignee’s right to
demand direct payment from the seller’s account
debtor tends to indicate that a true sale has taken
place. See In re Dryden Advisory Grp., 534 B.R. at 622.
Conversely, a seller’s right of repurchase from the
buyer tends to weigh in favor of classifying the
transaction as a loan because it indicates that the
seller has not fully alienated his ownership rights in
the property. See In re Joseph Kanner Hat Co., 482
F.2d 937, 940 (2d Cir. 1973) (finding pledge of security
rather than true sale where underlying asset serving
as security was returned upon repayment of the
advanced funds). In addition, courts may also look to
the intent of the parties in effectuating a sale or a loan
as indicated by the language of the contract. See
Platinum Rapid Funding Grp. Ltd. v. VIP Limousine
Servs., Inc., No. 604613-15, 2016 WL 4478807 (N.Y.
Sup. Ct. June 8, 2016).

App-48
Bearing all of these factors in mind, Defendants
urge that the paramount factor in determining
whether a transaction is a sale or a loan under New
York law is whether the “risk of nonpayment is
transferred from the seller to the buyer, not the degree
of risk borne by the buyer.” (Def. Rep. 11-12.) Because
the RD Entities purport to assume all of the risks of
nonpayment in the Purchase Agreements, they argue
that the Agreements are non-recourse and therefore
are true sales. (Id.)
Contrary to the RD Entities’ assertions, the
instant case is not a line-drawing exercise. The
assignments in the Purchase Agreements are void and
thus do not transfer a single right of ownership from
Consumers to the RD Entities in their monetary
claims. This constitutes the beginning and end of the
story. Because the assignments are invalid, the RD
Entities retain recourse against the Consumer in the
event of nonpayment.
In spite of the lack of case law classifying
structured settlement transactions as loans or sales
where a court deems the assignment void as a matter
of law against the third-party obligor, a single
Missouri state court case contains significant factual
parallels to the case at hand. In Missouri ex rel. Taylor
v. Salary Purchasing Co. Inc., the Missouri Attorney
General brought charges against a salary advance
company that offered consumers a cash advance on
their unearned wages. 358 Mo. 1022, 1024-25 (1949).
At that time, the Missouri legislature had made
transactions amounting to “payday loans” illegal. Id.
(citing Mo. Rev. Stat. §§ 3226, 3227 (1939) (capping
allowable interest rate at six percent if no rate specific

App-49
and eight percent if stated in contract, respectively)).
To circumvent this prohibition, the salary advance
company structured the transactions as “sales” in
which consumers would “assign” their future
unearned wages to the salary advance company. Id.
The assignment agreements contained exorbitant
repayment terms that dictated repayment of the
amount advanced plus fees that, in reality, functioned
as usurious interest rates. Id. Additionally, although
the salary advance company was authorized to notify
and collect from the consumer’s employer, it never
attempted to do this. Id. Ultimately, the Missouri
Attorney General brought charges under state civil
and criminal usury laws against the salary advance
company, arguing that the assignments were actually
loans with usurious interest rates. Id. In response, the
salary advance company argued that the assignments
were not loans subject to state usury laws, but valid
sales. Id. In the alternative, the salary advance
company asserted that the effect of a state statute
invalidating assignments of unearned wages would
not convert the assignments into loans but would only
render the assignments null and void. Id. at 1026.
In rejecting the salary advance company’s
argument, the Supreme Court of Missouri, sitting en
banc, noted that the void assignments “could be
nothing but loans” because they “transferred no right
or title in the unearned wages which they purported
to assign.” Id. In spite of the assignments’ terms to the
contrary, the transactions imposed a repayment
obligation on the consumer because the salary
advance company “did not intend to donate to the
applicants the money which it advanced on such void
assignments. It intended to create the relationship of

App-50
debtor and creditor.” Id. “The assignment was . . .
taken as a security for the money advanced, and as
something to be held over a customer who did not
make prompt settlement. . . . this is clearly an
extension of credit, an advance, or loan, to the
employee, with the assignment held over the employee
as a sort of club or collateral security.” Id. at 1028
(quoting McWhite v. State, 226 S.W. 542, 543 (Tenn.
1921)).
In sum, because the assignments in the Purchase
Agreements are void, the RD Entities obtain, at most,
an equitable lien on Consumers’ future settlement
award proceeds that establishes a creditor-debtor
relationship. Id. Accordingly, Defendants “extend[]
credit,” and Consumers “incur[] debt” under the
Purchase Agreements, and the RD Entities are
therefore “covered persons” under the CFPA.
Defendants argue that the legal effect of
invalidating an assignment is to “render the
agreement null and void.” (Def. Rep. 7) (citing Singer
Asset Fin. Co. v. Bachus, 741 N.Y.S.2d 618, 621 (N.Y.
App. Div. 2002)). As discussed, the Court has
determined that the assignment is void as against the
third-party obligors in this case, i.e., the NFL
Settlement Fund and the VCF Claims Administration.
However, the remaining contractual arrangement
between the RD Entities and Consumers created a
creditor-debtor relationship separate and apart from
the void assignments. To that end, although the
assignment is “null and void” as against the thirdparty obligors, the Court refuses to look the other way
when evaluating the true nature of the transactions.
Therefore, to the extent these extensions of credit did

App-51
not comply with state regulatory requirements
governing loans at the time they were offered, the RD
Entities will not be allowed simply to return to their
pre-agreement positions without any penalties. See,
e.g., Bouffard v. Befese, LLC, 976 N.Y.S.2d 510, 514
(N.Y. App. Div. 2013) (explaining that transaction
must be “considered in its totality and judged by its
real character, rather than by the name, color, or form
which the parties have seen fit to give it” in
determining whether it is a usurious loan).
The pre-settlement legal funding transactions
referenced in ALFA’s amicus curiae brief differ in a
crucial respect. (See ALFA Br.) In those transactions,
the pre-settlement legal funding agreements are
entered into before the claim is resolved. The ALFA
Member’s right to repayment is contingent on the
consumer’s ultimate success on his or her claim.
(ALFA Br. 5.) ALFA notes that Regulation Z’s
definition of “credit” expressly excludes “[i]nvestment
plans in which the party extending capital to the
consumer risks the loss of the capital advanced.” 12
C.F.R. § 1026.2(a)(14) (Supp. I 2017). The transactions
that the RD Entities offer present no such risk of loss
because, as a prerequisite, the RD Entities require
Consumers to have a settlement award letter stating
the amount to which they are entitled from their
respective settlement fund. (Compl. ¶¶ 20, 24-26.)
Applying this framework here, the Court
concludes that the Government has alleged plausibly
that the transactions at issue here functioned as
extensions of “credit” in practice.

App-52
a.

The RD Entities Extend “Credit”
and “Service[] Loans”

Under the CFPA, a “covered person” is one who
“extend[s] credit and servic[es] loans.” 12 U.S.C.
§§ 5481(6)(A); 5481(15)(A)(1). Having established that
the Complaint alleges adequately that the Purchase
Agreements at issue extend “credit,” the issue remains
whether the RD Entities also “servic[e] loans.” The RD
Entities argue that even if they extend “credit,” the
Government has not alleged plausibly that they also
“servic[e] loans.” 12 U.S.C. § 5481(15)(A)(1); (Def.
Reply 8.)
Under 12 U.S.C. § 5481(6), a “covered person” is
“any person that engages in offering or providing a
consumer financial product or service.” Id. (emphasis
added). Adoption of the RD Entities’ interpretation of
“financial product or service” to cover only entities
that both “extend[] credit and servic[e] loans” would
result in rendering the “or” in “financial product or
service” inconsistent with the term’s definition
because it would ascribe the same definition,
“extend[ing] credit and servic[ing] loans,” to two
distinct concepts that are separated by the term “or.”
12 U.S.C. §§ 5481(6)(A), 5481(15)(A)(1).
It is well-established that courts may interpret
the term “and” to have a disjunctive effect in
interpreting a statute’s meaning. See Peacock v.
Lubbock Compress Co., 252 F.2d 892, 894 (5th Cir.
1958) (holding that “and” was disjunctive in the
context of a statute that required an employer to pay
overtime wages to employees “engaged in the ginning
and compressing of cotton”). Here, interpreting the
term “and” disjunctively does not defy common sense.

App-53
Not infrequently, the party that originates or makes a
loan is different from the party that services that loan.
Given this fact, it would make little sense for Congress
to grant the CFPA jurisdiction only over loan
originators that service their own loans. Such an
interpretation would not capture a large section of the
market that the CFPA expressly seeks to regulate.
Even if Congress did not intend the term “and” to
be interpreted disjunctively, the Government has
adequately pleaded that the RD Entities “servic[e]
loans.” The CFPA defines the term “service provider”
as one who “provides a material service to a covered
person in connection with the offering or provision by
such covered person of a consumer financial product
or service.” 12 U.S.C. § 5481(26)(A). Drawing from this
statutory definition of the term “service,” which
appears in the same section as the term “financial
product or service,” the Court concludes that the
Government has alleged adequately that the RD
Entities “servic[e] loans” because they carry out
“material service[s] . . . in connection with the offering
or provision . . . of a consumer financial product or
service.” 12 U.S.C. § 5481(26)(A). For one, the
Complaint alleges that Roni Dersovitz has made
phone calls to collect from Consumers and that
Dersovitz has authority to determine whether RD
should collect. (Compl. ¶ 54.) Collection on loans is a
“material service” relating to the provision of a loan
because, without collection, the loan would be a
nullity.
Accordingly, the Government need only plead that
the RD Entities “extend[ed] credit” or “servic[ed]
loans” to allege plausibly that they are “covered

App-54
persons” under the CFPA. In the alternative, the
Court concludes that, even if the Government had to
allege that the RD Entities also “servic[e] loans,” the
Complaint also alleges adequately that the RD
Entities, by and through their founder and owner Roni
Dersovitz, engaged in such activities by collecting on
loans and making the decision to collect on loans.
4.

The RD Entities Are
Persons” Under the CFPA

“Covered

For the reasons stated above, the Court concludes
that the Government has pleaded adequately that the
RD Entities are “covered persons” under the CFPA. 12
U.S.C. § 5481(6)(a).
b. Failure to State a Claim Fed. R. Civ. P. 12(b)(6)
Defendants next argue that, even if the RD
Entities are “covered persons” within the meaning of
the CFPA, the Complaint should be dismissed for
failure to state a claim under Rule 12(b)(6).
i.

Rule
9(b)’s
Heightened
Pleading
Standard Does Not Apply to Non-Fraud
Claims

Before addressing the substantive allegations in
the Complaint, Defendants argue that because the
Government’s claims are all premised on an alleged
unified course of fraudulent conduct and the
Complaint fails to distinguish between fraud and nonfraudulent claims, Rule 9(b)’s heightened pleading
standard should apply to all of the claims alleged in
the Complaint. (See Def. Br. 24.) Proceeding under
this assertion, the RD Entities argue that the
Government’s claims fail under Rule 9(b)’s heightened
pleading standard and should be dismissed. (Id.) In

App-55
response, the Government asserts that fraud and
deception are separate legal concepts and that Rule
9(b)’s heightened pleading standard does not apply to
the Government’s deceptive conduct claims. (Pl. Opp.
19-21.)
Rule 9(b) of the Federal Rules of Civil Procedure
imposes a heightened pleading standard and requires
that “[i]n all averments of fraud or mistake, the
circumstances constituting fraud or mistake shall be
stated with particularity.” Fed. R. Civ. P. 9(b).
Specifically, Rule 9(b)’s heightened pleading standard
requires pleadings to “(1) specify the statements that
the plaintiff contends were fraudulent, (2) identify the
speaker, (3) state where and when the statements
were made, and (4) explain why the statements were
fraudulent.” Rombach v. Chang, 355 F.3d 164, 170 (2d
Cir. 2004) (quoting Mills v. Polar Molecular Corp., 12
F.3d 1170, 1175 (2d Cir. 1993)) (internal quotation
marks omitted).
At least two courts addressing this specific issue
have concluded that Rule 9(b)’s heightened pleading
standard does not apply to claims of unfair, deceptive,
or abusive acts or practices under the CFPA for three
reasons. See CFPB v. Frederick J. Hanna & Assocs.,
P.C., 114 F. Supp. 3d 1342, 1372 (N.D. Ga. 2015)
(concluding that claims for deception under the Fair
Debt Collection Practices Act (“FDCPA”) and the
CFPA should not be subject to Rule 9(b)); CFPB v.
Navient Corp., 17-CV-101, 2017 WL 3380530, at *24
(M.D. Pa. Aug. 4, 2017) (same). First, “Rule 9(b)
expressly applies only to claims alleging ‘fraud or
mistake,’ and as the Tenth Circuit and several district
courts have reasoned, consumer protection claims are

App-56
not claims of fraud, even if there is a deceptive
dimension to them.” Navient, 2017 WL 3380530, at
*24 (quoting Frederick J. Hanna, 114 F. Supp. 3d at
1372). “Second, ‘the United States Supreme Court has
consistently cautioned against extending this
heightened pleading standard beyond claims for fraud
or mistake.’” Id. Finally, application of Rule 9(b) “to
consumer protection claims is not only inconsistent
with some of the policy reasons for applying Rule 9(b)
in the first place, but is also inconsistent with the
remedial nature of consumer protection statutes.”
Navient Corp., 2017 WL 3380530, at *24 (quoting
Frederick J. Hanna & Assocs., 114 F. Supp. 3d at
1373-74). In Navient, the court elaborated on this last
reason by explaining that “unlike a fraud claim, the
[CFPA] does not have an intent element” such that
“requiring the CFPB to plead in conformity with Rule
9(b) would graft an intent requirement onto the claims
under the FDCPA and [CFPA] that is not otherwise
present.” Navient Corp., 2017 WL 3380530, at *25.
The Court has identified no case in which this
Court or the Court of Appeals has applied Rule 9(b)’s
heightened pleading standard to claims of deceptive or
abusive acts or practices under the CFPA. See, e.g.,
CFPB v. NDG Fin. Corp., No. 15-cv-5211 (CM), 2016
WL 7188792, at *14-15 (S.D.N.Y. Dec. 2, 2016)
(applying Rule 8 to claims under CFPA). Furthermore,
the Court finds the Navient court’s reasoning as to
why Rule 9(b)’s heightened pleading standard should
not be applied to deceptive acts or practices claims
under the CFPA to be persuasive. Navient, 2017 WL
3380530, at *24-25. Accordingly, the Court declines to
apply Rule 9(b)’s heightened pleading standard to
deceptive or abusive acts or practices claims under the

App-57
CFPA. 12 U.S.C. §§ 5531(a), 5536(a)(1)(B); Fed. R. Civ.
P. 9(b).
Similarly, the Court of Appeals has stated clearly
that Rule 9(b)’s heightened pleading standard does not
apply to New York General Business Law § 349. In so
holding, the Court of Appeals has noted that “[Section]
349 extends well beyond common-law fraud to cover a
broad range of deceptive practices” and that Section
349 claims “[do] not require proof of the same essential
elements (such as reliance) as common-law fraud.”
Pelman ex rel. Pelman v. McDonald’s Corp., 396 F.3d
508, 511 (2d Cir. 2005). Accordingly, Rule 8(a)’s less
stringent pleading standard applies to NYAG’s claim
under N.Y. Gen. Bus. Law § 349.
The question of what pleading standard should
apply to the NYAG’s claim under N.Y. Executive Law
§ 63(12) is less clear cut. New York Executive Law
§ 63(12) empowers the New York Attorney General to
seek injunctive relief and other remedies against
persons or entities that “engage in repeated
fraudulent or illegal acts or otherwise demonstrate
persistent fraud or illegality in the carrying on,
conducting or transaction of business” in New York.
N.Y. Exec. Law § 63(12). The statute defines the word
“fraudulent” as including “any device, scheme or
artifice
to
defraud
and
any
deception,
misrepresentation, concealment, suppression, false
pretense, false promise or unconscionable contractual
provisions.” Id. The terms “persistent fraud” or
“illegality” are defined to “include continuance or
carrying on of any fraudulent or illegal act or conduct.”
Id. Thus, while a claim under Section 63(12) may
allege fraud and necessitate a showing of knowledge

App-58
or reliance as an element of the claim, the NYAG may
equally assert a cause of action under Section 63(12)
that alleges “deception” or some other non-fraudulent
conduct that does not include scienter as an element.
See People v. Am. Motor Club, 582 N.Y.S.2d 688, 692
(N.Y. App. Div. 1992) (explaining that, under statute,
“scienter is not required and false promises are
sufficient” where pleadings amount to illegality under
§ 63(12), not fraud under § 63(12)).
Applying the same logic that the Court of Appeals
has employed in determining that claims under N.Y.
GBL § 349 are not subject to Rule 9(b)’s heightened
pleading standards where the underlying conduct is
not premised on a fraudulent scheme, the Court
concludes that NYAG’s claim under N.Y. Executive
Law § 63(12) is also not subject to this heightened
pleading standard because the underlying conduct is
premised on deceptive acts or practices that do not
include intent or reliance as an element of those
claims.
12
U.S.C.
§§ 5531(a),
5536(a)(1)(B).
Accordingly, the Court applies Rule 8(a) in evaluating
the Government’s pleading of its claim under N.Y.
GBL § 349.
1.

“Substantial Assistance”
Under the CFPA

Claims

In each of the CFPA deceptive or abusive acts or
practices claims brought against Defendants, the
Government alleges that Roni Dersovitz, the RD
Entities’ owner and founder, is liable for substantially
assisting the RD Entities in carrying out these
purported acts.
Under 12 U.S.C. § 5536(a)(3), it is unlawful for
“any person to knowingly or recklessly provide

App-59
substantial assistance to a covered person or service
provider in violation of the provisions of section 5531
of this title [including unfair, deceptive or abusive acts
or practices].” Defendants argue that Rule 9(b)’s
heightened pleading standard should apply to all of
the Government’s claims because they are all
“premised on an alleged scheme to defraud
consumers.” (Def. Br. 24.)
The Court concludes that the knowledge
requirement for individual liability under the CFPA
does not trigger Rule 9(b)’s heightened pleading
requirement. As discussed, the primary violation of
unfair, deceptive, or abusive acts or practices
underlying the CFPA claims against Dersovitz in his
individual capacity do not constitute fraud claims. See
Navient, 2017 WL 3380530, at *24 (“[C]onsumer
protection claims are not claims of fraud, even if there
is a deceptive dimension to them”). In addition, the
scienter requirements of “knowingly or recklessly” do
not implicate automatically Rule 9(b)’s heightened
pleading requirements. Courts in this Circuit have
defined “reckless” as behavior that is “highly
unreasonable” or represents “an egregious refusal to
see the obvious, or to investigate the doubtful.” SEC v.
Yorkville Advisors, LLC, ___ F. Supp. 3d ___, 2018 WL
1725555, at *14 (S.D.N.Y. Mar. 29, 2018). Such
standard is distinguishable from the scienter
associated with fraud, which “encompasses a
particular state of mind, an element of intent or
deception” that is lacking in the Complaint’s
allegations. Lenartz v. Am. Superconductor Corp., 879
F. Supp. 2d 167, 191-92 (D. Mass. 2012) (internal
quotation marks and citation omitted). Furthermore,
the one other case that the Court has identified

App-60
evaluating “substantial assistance” claims under the
CFPA, 12 U.S.C. 5536(a)(3), applied Rule 8(a) in
evaluating those claims on a motion to dismiss. CFPB
v. Universal Debt & Payment Solutions, LLC, 15-cv00859-RWS, 2015 WL 11439178 (N.D. Ga. Sept. 1,
2015).
Accordingly, the claims for individual liability
against Dersovitz pursuant to 12 U.S.C. 5536(a)(3) are
not subject to Rule 9(b)’s heightened pleading
standard.
2.

Specificity of Allegations Against
Each Defendant Under Rule 8(a)

Rule 8(a) requires that a defendant be given “fair
notice of what the . . . claim is and the grounds upon
which it rests.” Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 555 (2007). This threshold requirement
allows an adverse party to “‘answer the complaint and
prepare for trial.’” Lazarek v. Ambit Energy Holdings,
LLC, 15-CV-6361-FPG, 2017 WL 4344557, at *3
(W.D.N.Y. Sept. 28, 2017) (quoting Strunk v. U.S.
House of Representatives, 68 F. App’x 233, 235 (2d Cir.
2003)).
The RD Entities contend that the Complaint fails
to comply with Rule 8(a) because its allegations
“lump” the three corporate Defendants together
without adequately differentiating between and
among them. (Def. Br. 38.) Defendants argue that the
Government’s failure to parse the factual basis for
each claim as to each corporate Defendant deprives
the RD Entities of fair notice of the claims against
each of them. Id.; see Ochre LLC v. Rockwell
Architecture Planning & Design, P.C., No. 12 Civ.
2837, 2012 WL 6082387, at *6 (S.D.N.Y. Dec. 3, 2012).

App-61
In response, Plaintiffs assert that they refer to the
Defendants collectively because each Defendant
engaged in the wrongdoing alleged in the Complaint.
(Pl. Opp. 35.)
Although the Complaint is hardly a model of best
pleading practices, the Court concludes that its
shortcomings do not amount to fatal “lumping”
together of Defendants such that the Complaint
warrants dismissal for failure to comply with Rule
8(a)’s pleading requirements. First, the Court of
Appeals has held that dismissal pursuant to Rule 8 is
proper when a complaint is “unintelligible” and does
not “explain[] what conduct constituted the violations,
which defendants violated which statutes . . . or how
the alleged violations harmed [the plaintiff].” Vantone
Grp. LLC v. Yangpu NGT Indus. Co., Ltd., No. 13-cv7639 (LTS), 2015 WL 4040882, at *4 (S.D.N.Y. July 2,
2015) (quoting Strunk, 68 F. App’x. at 235) (internal
quotation marks omitted).
Here, the Complaint states the nature of the
various types of claims brought against the corporate
defendants, including alleged violations of state and
federal consumer protection statutes, and the conduct
underlying those claims. Vantone, 2015 WL 4040882,
at *4. At this stage of the proceedings, the Government
is not required to plead specific details as to which
entity did what during the alleged course of
misconduct. See id. (quoting Hudak v. Berkley Grp.,
Inc., No. 13CV0089-WWE, 2014 WL 354676, at *4 (D.
Conn. Jan. 23, 2014)) (“[P]rior to discovery, plaintiff
need not explain the details of each defendant’s role in
the planning, funding, and executing [of] defendant’s
alleged joint [] scheme”). The Complaint also states

App-62
adequately which Defendants are accused of violating
which statutes because the Complaint avers that all
three of the corporate Defendants engaged in each of
the alleged violations. (Pl. Opp. 35) (“The three RD
Defendants are referred to collectively because each
engaged in the wrongdoing alleged in the Complaint”).
“Nothing in Rule 8 prohibits collectively referring to
multiple defendants where the complaint alerts
defendants that identical claims are asserted against
each defendant.” Vantone, 2015 WL 4040882, at *4
(quoting Hudak, 2014 WL 354676, at *4). Therefore,
the Complaint does not warrant dismissal under Rule
8(a) for impermissibly “lumping” together Defendants.
Defendants rely on Ochre LLC v. Rockwell
Architecture Planning & Design, P.C., in arguing that
the Complaint “impermissibly” lumps the corporate
Defendants together. No. 12 Civ. 2837, 2012
WL6082387, at *6 (S.D.N.Y. Dec. 3, 2012). In Ochre,
the court concluded that the complaint failed to state
a copyright-infringement claim where the plaintiff
brought claims against four entirely separate entities,
“a design firm, an architect, a hotel, and a
procurement agent,” and failed to separate out “the
key allegations against each defendant.” Aghaeepour
v. N. Leasing Sys., Inc., No. 14-CV-5449 (NSR), 2015
WL 7758894, at *3 (S.D.N.Y. Dec. 1, 2015) (quoting
Ochre, 2012 WL 6082387, at *6). Unlike in Ochre,
where the defendants were entirely separate entities,
the Complaint here avers that the three corporate
defendants’ share significant characteristics: the
corporate defendants share a principal places of
business at the same address, (Compl. ¶¶ 15-17), Roni
Dersovitz is the founder and owner of each corporate
defendant, (Compl. ¶ 18), all three corporate

App-63
defendants acted in “swoop[ing] in with a ‘deal’” while
the Class Members and Eligible Claimants awaited
payment of their settlement awards (Compl. ¶ 5), and
that, based on the information in the Purchase
Agreements, the ABA account number for wiring
money is the same on all of the Purchase Agreements
regardless of the corporate defendant named in the
Purchase Agreement, (Pl. Opp. 36.) For these reasons,
Ochre has limited applicability to the instant
situation.
Accordingly, because the Complaint provides each
corporate defendant with “fair notice of what the . . .
claim is and the grounds upon which it rests,”
dismissal under Rule 8 is not warranted here.
Erickson v. Pardus, 551 U.S. 89, 93 (2007).
ii.

“Substantial Assistance” Liability Under
the CFPA

In its Complaint, the Government brings five
claims of individual liability against Roni Dersovitz
for “knowingly or recklessly providing substantial
assistance” to a “covered person” under the CFPA—
here, the RD Entities. 12 U.S.C. § 5536(a)(3); (Compl.
¶¶ 8, 69, 77, 84, 91, 98.)
The Court has identified only one case
interpreting 12 U.S.C. § 5536(a)(3), and that decision
does not bind this Court. See CFPB v. Univ. Debt &
Payment Solutions, LLC, et al., 15-CV-00859-RWS,
2015 WL 11439178 (N.D. Ga. Sept. 1, 2015).
Nevertheless, the Court finds the Universal Debt &
Payment Solutions court’s analysis pertaining to the
scienter requirement under 12 U.S.C. § 5536(a)(3)
instructive for its own analysis.

App-64
In Universal Debt & Payment Solutions, the court
drew on the substantially similar requirements of
individual aiding and abetting liability under federal
securities laws and individual liability for providing
“substantial assistance” under the CFPA, 12 U.S.C.
§ 5536(a)(3), in interpreting the CFPA’s individual
liability statute. 15 U.S.C. § 78t(e); 2015 WL
11439178, at *6. Section 20(e) imposes liability on
“any person that knowingly or recklessly provides
substantial assistance to another person in violation
of [the securities laws].” 15 U.S.C. § 78t(e). 6
The Court of Appeals has interpreted aiding and
abetting liability under § 20(e) to require the
Government to show “(1) the existence of a securities
law violation by the primary (as opposed to the aiding
and abetting) party; (2) ‘knowledge’ of this violation on
the part of the aider and abettor; and (3) ‘substantial
assistance’ by the aider and abettor in the
achievement of the primary violation.” SEC v. DiBella,

Although the Federal Trade Commission Act (“FTCA”) and
the CFPA share structural characteristics that facilitate
statutory interpretation under other CFPA provisions, the
FTCA’s substantial assistance provision does not contain an
analogous scienter requirement and therefore has limited
relevance here. See NDG Corp., 2016 WL 7188792, at *16 (noting
that “courts have adopted the established meaning of other words
in § 5536 [of the CFPA] from the FTCA, in acknowledgment of
the two provisions’ similarity” and that “the FTCA and CFPA
were . . . enacted for similar purposes”). Under the FTCA, the
Federal Trade Commission (“FTC”) is authorized to prevent
“persons, partnerships, or corporations . . . from using . . . unfair
or deceptive acts or practices in or affecting commerce.” 15 U.S.C.
§ 45(a)(2).
6

App-65
587 F.3d 553, 566 (2d Cir. 2009) (internal quotation
marks and citation omitted).
To plead adequately the “substantial assistance”
element, the Government must “establish that the
aider and abettor ‘in some sort associated himself with
the venture, that he participated in it as something he
wished to bring about, and that he sought by his action
to make it succeed.’” SEC v. DiMaria, 207 F. Supp. 3d
343, 359 (S.D.N.Y. 2016) (quoting SEC v. DiBella, 587
F.3d 553, 566 (2d Cir. 2009)). Courts have recognized
that “although ‘a high degree of knowledge may lessen
the [Government’s] burden in proving substantial
assistance,’ awareness and approval, without more, do
not constitute substantial assistance.” DiMaria, 207
F. Supp. 3d at 359 (quoting SEC v. Apuzzo, 689 F.3d
204, 215 (2d Cir. 2012)).
As to § 20(e)’s knowledge requirement, “the
plaintiff must at least demonstrate recklessness” to
satisfy it. Yorkville Advisors, LLC 2018 WL 1725555
at *14. “Mere negligence does not suffice.” Id.
“Recklessness sufficient to establish scienter involves
conduct that is highly unreasonable and represents an
extreme departure from the standards of ordinary
care.” SEC v. China N.E. Petroleum Holdings Ltd., 27
F. Supp. 3d 379, 389 (S.D.N.Y. 2014) (internal
quotation marks and citation omitted).
iii. Deceptive and Abusive Conduct Under
the CFPA
1.

Counts I, III, IV, V: Deceptive Acts or
Practices Under the CFPA

The Complaint includes four claims of deceptive
acts or practices under the CFPA against all of the
named Defendants. To make a prima facie case of

App-66
deceptive acts or practices under the CFPA, the
Complaint
must
allege
adequately
“(1)
a
representation, omission or practice that, (2) is likely
to mislead consumers acting reasonably under the
circumstances, and (3), [that] the representation,
omission, or practice is material.” CFPB v. NDG Fin.
Corp., 15-cv-5211 (CM), 2016 WL 7188792, at *14
(S.D.N.Y. Dec. 2, 2016) (quoting FTC v. Med. Billers
Network, Inc., 543 F. Supp. 2d 283, 303 (S.D.N.Y.
2008)) (alteration in original).
In essence, the RD Entities argue that each of the
Complaint’s deceptive acts or practices claims under
the CFPA must fail because each is based on the
conclusory allegation that the transactions at issue
are loans, not sales. (Def. Br. 26.) Because, as a matter
of law, the Purchase Agreements were void and
functioned plausibly as extensions of credit, the Court
rejects this defense and finds that the Complaint
plausibly alleges that Defendants engaged in
deceptive acts or practices in violation of the CFPA.
a.

Count I

Count I avers that the RD Entities violated the
CFPA by deceptively marketing the Purchase
Agreements as sales when in fact these transactions
were properly characterized as loans. (Def. Br. 25.)
As discussed earlier, federal and state law, as well
as the NCLSA’s express terms, prohibit consumers
from assigning any of their interest in their settlement
awards from the VCF and NCLSA, respectively.
According to the Complaint, Defendants made false
representations to Consumers that its products were
valid assignments of Consumers’ interests in their
anticipated settlement awards. (Compl. ¶ 38-39.)

App-67
Defendants also labeled the Purchase Agreements as
“assignment and sale” agreements when, in fact, the
Purchase Agreements were not true sales. See FTC v.
Verity Int’l, Ltd., 443 F.3d 48, 64 (2d Cir. 2006)
(holding that making a representation to consumers
that is false is sufficient to show that representation
would likely mislead consumers acting reasonably in
alleging claim under Section 5(a)(1) of the Federal
Trade Act, 15 U.S.C. § 45(a)(1)). Such statements,
which are false, could objectively mislead a consumer
acting reasonably under the circumstances, thus
satisfying the claim’s second element.
Finally, the Government also alleges adequately
that the misleading representation was material.
“Express representations that are shown to be false
are presumed material.” Med. Billers Network, 543 F.
Supp. 2d at 304 (citing FTC v. Patriot Alcohol Testers,
Inc., 798 F. Supp. 851, 856 (D. Mass. 1992)). Because
the Complaint alleges adequately that the Purchase
Agreements were not valid sales, representations to
the contrary would be material.
Accordingly, the Government alleges adequately
that Defendants engaged in deceptive acts or practices
in violation of the CFPA.
i.

“Substantial
Assistance”
Claim
Against
Roni
Dersovitz Under Count I

The Court concludes that the Government has
pleaded facts sufficient to show that Dersovitz had the
requisite scienter to state a claim for individual
liability under 12 U.S.C. § 5536(a)(3). As to the first
element and as already established, the Government
has alleged plausibly that the RD Entities engaged in

App-68
deceptive acts or practices in violation of 12 U.S.C.
§§ 5531(a), 5536(a)(1)(B), which in turn alleges
adequately an “actual violation” of § 5531(a), by
misrepresenting that it is entering into contracts with
Consumers for valid and enforceable assignments.
(Compl. ¶ 63.)
Turning to the scienter requirement, the Court
concludes that the Complaint pleads facts sufficient to
allege that Dersovitz exhibited an “extreme departure
from the standards of ordinary care” in offering to
enter into the Purchase Agreements with Consumers
that Dersovitz must have known were likely not valid.
The Complaint alleges that Dersovitz has
“significant responsibility for establishing RD’s
policies and practices,” “substantial control over RD’s
operations,” and “responsibility to [sic] dictate all the
terms of [C]onsumer contracts.” (Compl. ¶¶ 18, 27.) In
addition, Dersovitz is the founder and owner of each
RD Entity named as a Defendant in this action.
(Compl. ¶ 18.) Given Dersovitz’s role as founder and
owner of the RD Entities and his authority to “dictate
the terms of [C]onsumer contracts,” his conduct is at
least “reckless” with respect to the NFL Settlement
Agreement’s anti-assignment clause and the AntiAssignment Act’s potential applicability to the VCF
Purchase Agreements. (Compl. ¶¶ 34-36.)
As to the NFL Purchase Agreements, the NCLSA
contains clear and unambiguous anti-assignment
language. Dersovitz’s failure to inform Class Members
that this existed exhibits “highly unreasonable”
conduct that “represents an extreme departure from
the standards of ordinary care.” Furthermore, the
allegations suggest that Dersovitz was aware of the

App-69
possibility that the assignments were impermissible
but decided to go ahead with the transaction in spite
of this. The Purchase Agreements address specifically
the possibility that the assignments in the Purchase
Agreements will be classified as loans by a court.
Similarly with the VCF Purchase Agreements,
Dersovitz encountered several warning signs
indicating a high risk that the RD Entities were
misrepresenting the nature of these agreements to
Consumers, specifically, that the VCF Claims
Administrator refused to make payment directly to
the RD Entities, in spite of its demands that it do so
pursuant to the assignments, and the general
disclaimer in the VCF Purchase Agreements that a
court may find the sale to be a loan. In sum, the
Complaint adequately alleges that Dersovitz acted
recklessly in knowing that the assignments may well
be invalid but holding them out as enforceable.
Finally,
Dersovitz
provided
“substantial
assistance” to the RD Entities in carrying out these
CFPA violations. Dersovitz “associated himself” with
the RD Entities as their founder and owner and
“participated in [the enterprise] as something he
wished to bring about” by continuing to craft the RD
Entities’ policies and procedures and exercising
authority over those Entities. Furthermore, Dersovitz
“sought by his action to make [the RD Entities]
succeed” by making offers to enter into Purchase
Agreements to Consumers, (Compl. ¶ 54), being
responsible for “solicit[ing] funds from investors” for
cash advance payments to Consumers, (Compl. ¶ 51),
and “[making] phone calls to at least one New York

App-70
consumer to collect from that consumer,” (Compl.
¶ 54).
Accordingly, the Complaint alleges adequately a
claim of “substantial assistance” liability against Roni
Dersovitz in his individual capacity. 12 U.S.C.
§ 5536(a)(3).
b.

Count III

Count III of the Complaint avers that Defendants
violated the CFPA’s prohibition on deceptive acts or
practices by making representations that Defendants
could “cut through red tape” and expedite payment of
Consumers’ settlement awards. (Compl. ¶¶ 44-48.)
Defendants argue that this statement is not
misleading because, read in the context of the entire
advertisement or transaction, a reasonable Consumer
would understand this to mean that the RD Entities
would disburse funds more quickly than the
settlement fund or claims administrator would, not
that the RD Entities would actually expedite
disbursements from the fund or the administrator.
(Def. Br. 34.) The Court concludes that such a
representation, “without appropriate disclosures . . .
could deceive reasonable consumers” who are
navigating a complex settlement landscape with
limited knowledge of the inner workings of a
settlement fund. CFPB v. Siringoringo, SACV 1401155 JVS (AJWx), 2016 WL 102435, at *5 (C.D. Cal.
Jan. 7, 2016). Such representation is also material
because it could “inform the consumer’s decision to
engage” the Defendants in securing expedited
payment. Id. (citing 12 C.F.R. § 1015.3(b)(2)). Given
that Defendants target individuals who may be
suffering financial hardship due to delays in payment

App-71
of their settlement award, representations regarding
the timing of procuring settlement award payments
would undoubtedly be material to Consumers’
engaging Defendants’ services.
In sum, the Complaint alleges adequately a claim
of deceptive acts or practices under the CFPA for the
representations described in Count III regarding the
timing of payments.
i.

“Substantial
Assistance”
Claim
Against
Roni
Dersovitz Under Count III

The Government alleges that Roni Dersovitz is
individually liable under 12 U.S.C. § 5536(a)(3) for
providing “substantial assistance” to the RD Entities
in engaging in deceptive acts or practices, 12 U.S.C.
§§ 5531(a), 5536(a)(1)(B), by misrepresenting on the
RD Entities’ website that Defendants could “speed[]
up” disbursement of a Consumer’s award and “cut
through red tape” to get payment from the settlement
administrator sooner. (Compl. ¶¶ 79, 84.)
Here, the Court has already determined that the
Government alleged adequately that the RD Entities
made material misrepresentations to Consumers in
violation of 12 U.S.C. § 5536(a)(1)(B). Turning to the
“knowing” or “reckless” requirement of 12 U.S.C.
§ 5536(a)(3), the Court also concludes that, based on
the knowledge that Dersovitz had through his
authority over the RD Entities and Dersovitz’s
approval of the contents of RD’s website shows that he
at
least
“recklessly”
made
material
misrepresentations that were likely to mislead a
reasonable consumer. (Compl. ¶ 46.) Futhermore,
Dersovitz’s approval of a website intended to draw in

App-72
business for the RD Entities alleges adequately that
he provided “substantial assistance” to the RD
Entities’ venture by maximizing their prospects for
new business through their websites.
Accordingly, the Complaint alleges adequately
facts demonstrating that Dersovitz substantially
assisted the RD Entities in engaging in deceptive acts
or practices in violation of the CFPA.
c.

Count IV

Count IV, which alleges that the RD Entities
acted deceptively in violation of the CFPA by making
misleading statements as to when RD would pay
Consumers, pleads adequately facts demonstrating
that the RD Entities engaged in deceptive conduct
under the CFPA. (Compl. ¶¶ 86-89.)
“A claim is considered material if it involves
information important to consumers and, hence, is
likely to affect their choice of, or conduct regarding a
product.” Med. Billers Network, 543 F. Supp. 2d at 304
(internal quotation marks and citation omitted). One
of Consumers’ main motivations in entering into
contracts with the RD Entities was to get their money
sooner than they otherwise would from their thirdparty obligors. (Compl. ¶¶ 86-88.) Accordingly, the RD
Entities’ failure to provide money to Consumers on
certain dates as agreed is misleading insofar as the RD
Entities made statements that turned out to be false,
and those statements are also material in that they
“would influence the Consumer’s decision” as to
whether to enter into the Purchase Agreement or not.
Med. Billers Network, 543 F. Supp. 2d at 313.
The RD Entities’ argument that such grievances
amount only to a breach of contract claim is undercut

App-73
by the fact that the contracts do not speak to the
timing of payment. (Def. Br. 36); (Pl. Opp. 27.)
Therefore, the Government need not “identify[] which
of the 27 contracts the RD Entities allegedly breached
by failing to make timely payment.” (Def. Br. 36.) As
previously noted, Rule 9(b)’s heightened pleading
standard does not apply to deceptive conduct claims
under the CFPA, and therefore the Government need
not aver the “who,” “what,” “where,” and “when” that
9(b) requires at this stage. The Complaint avers
adequately that Defendants made misleading
statements, outside the four corners of the Purchase
Agreements, as to the timing of payments that misled
consumers. Accordingly, the Government has alleged
plausibly that the RD Entities engaged in deceptive
acts or conduct under Count IV.
i.

“Substantial
Assistance”
Claim
Against
Roni
Dersovitz Under Count IV

The Court concludes that the Complaint alleges
adequately a claim against Roni Dersovitz for
“substantially assisting” the RD Entities in carrying
out deceptive acts or practices by making
misstatements about when Consumers would receive
payments from the RD Entities. 12 U.S.C. §§ 5531(a),
5536(a)(1)(B); (Compl. ¶¶ 51, 90-91.) Having
established that the Complaint alleges adequately a
claim for the underlying violation, the Court also
concludes that the Complaint alleges adequately that
Dersovitz at least “recklessly” provided substantial
assistance to the RD Entities in misrepresenting to
Consumers when their funds would be disbursed.
(Compl. ¶ 86.) The Complaint alleges that Dersovitz

App-74
“has authority and responsibility to . . . determine
when funds for [C]onsumers would arrive.” (Compl.
¶ 51.) As noted above, the timing of payments was
crucial to Consumers, who entered into these
transactions for the sole purpose of receiving
expedited access to liquidity in the form of a lump sum
cash payment. Incorrect statements as to the timing
of disbursement of Consumers’ payments, if made,
would constitute an “extreme departure from the
standards of ordinary care” given that Dersovitz had
some element of authority over when funds would
arrive and given the importance of the timing to
payments to these particular Consumers. (Compl.
¶ 51.)
Finally, for the reasons stated earlier, including
Dersovitz’s responsibility for the RD Entities’ policies
and practices and his role as founder and CEO of the
RD Entities, the Complaint alleges adequately that
Dersovitz
sought
ostensibly
through
these
misstatements “to make [the RD Entities] succeed” by
drawing in Consumers who were primarily concerned
with the timing of their settlement payments.
DiMaria, 207 F. Supp. 3d 343, 359 (S.D.N.Y. 2016)
(quoting SEC v. DiBella, 587 F.3d 553, 566 (2d Cir.
2009)). Accordingly, the Complaint alleges adequately
a claim for “substantial assistance” liability against
Dersovitz in his individual capacity.
d.

Count V

Under Count V, the Government alleges that the
RD Entities engaged in deceptive acts or practices by
“collecting on contracts that are void under state laws
or, in the alternative, that function as loans with
interest rates that exceed usury limits under state

App-75
laws, and on which no payment is due.” (Compl. ¶¶ 9394.)
For the same reasons that the Court found the
Government’s factual allegations to plead adequately
a claim of deceptive conduct under Count I, so too here.
Informing Consumers that they have an obligation to
repay under a transaction in which the assignment is
void or unenforceable clearly meets the materially
misleading threshold under the CFPA. Collecting on
loans that are void is materially misleading because it
gives Consumers the impression that “borrowers were
obligated to repay” the RD Entities when in reality the
loan agreements were void and the borrowers were not
legally obligated to pay. CFPB v. CashCall, Inc., CV
15-7522-JFW (RAOx), 2016 WL 4820635, at *10 (C.D.
Cal. Aug. 31, 2016), appeal filed, No. 18-55479 (9th
Cir. Apr. 12, 2018). Accordingly, the Government has
alleged plausibly that Defendants engaged in
deceptive acts or conduct under Count V.
i.

“Substantial
Assistance”
Claim
Against
Roni
Dersovitz Under Count V

As explained above, the Court concludes that the
Complaint alleges adequately that the RD Entities
engaged in deceptive acts or practices in violation of
the CFPA by indicating to Consumers that they had
an obligation to repay the RD Entities when, in fact,
the loans were usurious and therefore void under state
law. 12 U.S.C. §§ 5531(a), 5536(a)(1)(B). The
Government has also alleged adequately that
Dersovitz substantially assisted the RD Entities in
carrying out these deceptive acts and practices. 12
U.S.C. § 5536(a)(3). At a minimum, the Complaint and

App-76
the Purchase Agreements themselves contain facts
adequate to allege that Dersovitz acted “recklessly” in
providing this assistance. The entire premise of the
RD Entities’ business model is labeling transactions
that look and function like loans as “sales” to
circumvent the regulatory restrictions that would
otherwise govern these transactions if they were
loans.
According to the Complaint, Dersovitz “has
authority and responsibility to dictate all the terms of
consumer contracts” and “makes decisions on the
terms of the offers or extensions of credit.” (Compl.
¶ 27.) These allegations, coupled with the fact that the
Purchase Agreements reserve the right to file a UCC
Financing Statement in the event a court deems the
transaction a loan and Dersovitz’s position as CEO
and founder of the RD Entities, allege facts sufficient
to find that Dersovitz exhibited “highly unreasonable”
conduct in failing to determine whether the
assignments were valid before offering Purchase
Agreements to Consumers. The allegations, viewed
collectively, indicate that Dersovitz knew that the
transactions might not be valid assignments but
proceeded with them in any event in an “extreme
departure from the standard of ordinary care.”
Finally, the Complaint alleges that Dersovitz
“substantially assisted” the RD Entities in carrying
out this deceptive conduct in light of his role as
founder and CEO of the RD Entities and his
substantial involvement in the business, such as
collecting on loans, drafting policies, and having the
final word on the terms of the Purchase Agreements.
Accordingly, the Complaint pleads facts sufficient to
state a claim of individual liability against Dersovitz

App-77
for substantially assisting a “covered person” under
the CFPA.
2.

Count II: Abusive Acts or Practices
Under the CFPA

The Government alleges that the RD Entities
engaged in abusive conduct by undermining
Consumers’ understanding
of the Purchase
Agreements through their misrepresentations that
the contracts are for valid and enforceable
assignments. (Compl. ¶¶ 72-73.) Under the CFPA,
conduct is “abusive” where it “materially interferes
with the ability of a consumer to understand a term or
condition of a consumer financial product or service,”
“takes unreasonable advantage of . . . a lack of
understanding on the part of the consumer of the
material risks, costs, or conditions of the product or
service,” “takes unreasonable advantage of . . . the
inability of the consumer to protect the interests of the
consumer in selecting or using a consumer financial
product or service,” or “takes unreasonable advantage
of . . . the reasonable reliance by the consumer on a
covered person to act in the interests of the consumer.”
12 U.S.C. § 5531(d).
Here, the Government has pleaded sufficient facts
to state a claim for abusive acts or practices under the
CFPA. Representations that a transaction is a sale
when it does not, in fact, transfer validly any rights of
ownership from the consumer to the RD Entities are
materially misleading because such representations
are false. To that end, the Government is correct that
these false representations prevent Consumers from
evaluating accurately whether this transaction is in
their best interest. Defendants’ contention that they

App-78
disclose adequately the risks involved in the Purchase
Agreements by labeling them “complex financial
transaction[s]” does not neutralize other materially
misleading
information.
The
repeated
misrepresentations alleged, assuming they were
made, would “create[] the ‘net impression’ that the
[Purchase Agreements] were enforceable” even though
that impression is “patently false” because the
Purchase Agreements “were void.” CashCall, 2016 WL
4820635, at *10.
Accordingly, the Government has alleged
plausibly that the RD Entities engaged in abusive
practices under the CFPA.
a.

“Substantial Assistance” Claim
Against Roni Dersovitz Under
Count II

The Government alleges plausibly that Dersovitz
knowingly or recklessly provided substantial
assistance to the RD Entities in carrying out abusive
acts or practices in violation of the CFPA. 12 U.S.C.
§ 5536(a)(3); 12 U.S.C. § 5531(d).
Aside from alleging plausibly that the RD Entities
engaged in conduct sufficient to state a claim for
abusive acts or practices under 12 U.S.C. § 5531(d),
the Government also alleges plausibly that Dersovitz
was “reckless” and provided “substantial assistance”
to the RD Entities by enabling them to engage in this
conduct.
As to the scienter requirement, the Complaint
alleges adequately that Dersovitz knew, would have
known, or acted recklessly with a high risk that the
assignments in the Purchase Agreements were
prohibited. Universal Debt & Payment Solutions, 2015

App-79
WL 11439178, at *10. At a minimum, a business
premised on purchasing rights to structured
settlement payments should know whether the future
receivables are, in fact, assignable. According to the
Complaint, Dersovitz has considerable control over
the terms of the consumer contracts, (Compl. ¶ 27),
and exercises considerable control over the RD
Entities’ practices and policies. Given all of this,
failure to conduct proper due diligence on whether the
assignments in the Purchase Agreements are
permissible is “highly unreasonable” and amounts to
an “an extreme departure from ordinary standards of
care.” Id. at *9. For the reasons stated earlier,
Dersovitz also substantially assisted the RD Entities
through this conduct given his role as CEO and
founder of the RD Entities, (Compl. ¶ 18), his
involvement in dictating the terms of the Purchase
Agreements, (Comnpl. ¶ 27), and determining when to
collect from Consumers, (Compl. ¶ 54). Such
allegations taken together are adequate to assert that
Dersovitz “associate[d] himself with the venture” and
“participate[d] in it as something [he] wished to bring
about,” and “[sought] to make it succeed” by taking
unreasonable advantage of the reasonable reliance by
Consumers on the RD Entities. Id. at *13.
iv. State Law Claims
Defendants devote significant space in arguing
that the Complaint’s CFPA claims should be
dismissed because the CFPB is unconstitutionally
structured and thus lacks authority to bring such
claims. (Def. Br. 9-14.) Vexingly, Defendants do not
address the NYAG’s independent authority to bring
claims in federal district court under the CFPA,

App-80
without regard to the constitutionality of the CFPB’s
structure. 12 U.S.C. § 5552(a)(1) (authorizing state
attorneys general to bring claims under the CFPA);
(Pl. Opp. 7.) The Government has alleged adequately
claims for deceptive and abusive acts or practices
under the CFPA, and therefore federal question
subject matter jurisdiction over the CFPA claims
exists regardless of the constitutionality of the CFPB’s
structure.
A federal
district
court
may
exercise
“supplemental jurisdiction over all other claims that
are so related to claims in the action within [the
court’s] original jurisdiction that they form part of the
same case or controversy . . . .” 28 U.S.C. § 1367(a).
“Federal-law and state-law claims form part of the
same case or controversy where they ‘derive from a
common nucleus of operative fact’ and are ‘such that
[a plaintiff] would ordinarily be expected to try them
all in one judicial proceeding.’” Nguyen v. Am. Express
Co., 282 F. Supp. 3d 677, 683 (S.D.N.Y. 2017) (quoting
Carnegie-Mellon Univ. v. Cohill, 484 U.S. 343, 349
(1988)). Review of the factual allegations in the
Complaint makes clear that both the federal- and
state-law claims derive from the same underlying
conduct and transactions, namely, Defendants’
conduct towards Consumers in offering the Purchase
Agreements. These facts establish that the federaland state-law claims “arise out of the same common
nucleus of operative fact” such that the exercise of
supplemental jurisdiction over the NYAG’s state-law
claims would be appropriate. 28 U.S.C. § 1367(a).
Accordingly, the Court will exercise supplemental
jurisdiction over the NYAG’s New York state law
claims for violations of civil and criminal usury laws,

App-81
New York General Obligations Law, deceptive
practices, false advertising, and fraud. 28 U.S.C.
§ 1367(a).
1.

NYAG’s Jurisdiction
Purchase Agreements

Over

the

In a single footnote, Defendants argue that the
Complaint pleads insufficiently NYAG’s jurisdiction
over the transactions at issue in this case because “the
RD Entities’ principal place of business is New Jersey”
and “NYAG has not made any allegations regarding
the residences of the customers who entered the
transactions at issue.” (Def. Br. 38 n.14.)
As a preliminary matter, the Court pays minimal
credence to an argument raised in a two-sentence
footnote of a forty-page motion to dismiss regarding
the NYAG’s jurisdiction over certain Consumers. See
Gramercy Advisors, LLC v. Ripley, 13-cv-9070 (VEC),
2014 WL 5847444, at *3 (S.D.N.Y. Nov. 12, 2014)
(“Issues adverted to in a perfunctory manner,
unaccompanied by some effort at developed
argumentation, are deemed waived.”) (internal
quotation marks and citation omitted). To the extent
that Defendants challenge NYAG’s assertion of
jurisdiction over the transactions under New York
General Business Law § 349—the statute at issue in
the two cases that they cite in support of this
argument—NYAG has alleged adequately that the
transactions have a sufficient nexus to New York
under New York General Business Law § 349, because
the Complaint makes reference to “New York
consumers,” (Compl. ¶¶ 54) and loans made “in New
York,” (Compl. ¶ 57). In addition, several of the
contracts themselves indicate that the Consumer has

App-82
a New York address, (See, e.g., Dersovitz Aff. Ex. A-2
at 20) (listing consumer as having New York
residence), and that certain of the Consumers used a
New York agent to seek legal advice regarding the
Purchase Agreement before entering into it,
(Dersovitz Aff. Ex. A-1 at 18-19) (showing New York
attorney sending letters on behalf of Consumer client
to RD Legal Funding Partners, LP). For purposes of
New York General Business Law § 349, the relevant
inquiry is whether there are New York transactions
that are deceptive or that occur as a result of out-ofstate deceptive conduct. New York v. Feldman, 210 F.
Supp. 2d 294, 303 (S.D.N.Y. 2003).
Accordingly, the information in the Purchase
Agreements as well as the allegations in the
Complaint allege adequately that deceptive
transactions took place in New York and, in the
alternative, that these transactions took place in New
York as a result of out-of-state deceptive conduct.
2.

Count VI: Claims Under New York
Civil and Criminal Usury Laws

The
Complaint alleges adequately that
Defendants have charged more than the maximum
usury rate under New York Banking Law § 14-a, with
respect to New York’s civil usury laws, and under New
York Penal Law §§ 190.40 and 190.42, with respect to
New York’s criminal usury laws. (Compl. ¶¶ 99-105,
106-110.) Defendants’ sole argument in response to
the Government’s usury claims is that the
transactions at issues are sales, not loans, and
therefore are not subject to state usury laws. (Def. Br.
37.)

App-83
As discussed supra, the Court has concluded that
Plaintiffs have alleged adequately that the
transactions at issue constitute loans, not sales, and
therefore Defendants’ argument here is without effect.
“In New York, the civil usury statute provides that
‘[t]he maximum interest rate permissible on a loan is
16% per annum, and any interest rate in excess of that
amount is usurious.’” Roopchand v. Mohammed, 62
N.Y.S.3d 514, 516 (N.Y. App. Div. 2017) (internal
quotation marks and citation omitted) (citing N.Y.
Gen. Oblig. Law § 5-501[a]; N.Y. Banking Law
§ 14(a)). Under New York’s criminal usury law, it is a
felony to “knowingly charge or collect interest on a
‘loan or forbearance’ at a rate above 25% annually.”
Madden v. Midland Funding, LLC, 237 F. Supp. 3d
130, 141 (S.D.N.Y. 2017) (quoting N.Y. Penal Law
§ 190.40). Furthermore, it is unlawful to collect
interest on loans or forbearances that exceed the
maximum allowable interest rate because such loans
are void. (Compl. ¶¶ 101-03); N.Y. Gen. Oblig. Law
§ 5-501; N.Y. Banking Law § 14-a.
Accepting the allegations in the Complaint as true
and in the light most favorable to the NYAG at this
stage of the proceedings, NYAG alleges facts
demonstrating plausibly that at least certain of the
Purchase Agreements functioned as loans that
charged usurious interest rates in excess of New
York’s civil and criminal usury caps, respectively.
(Compl. ¶¶ 29, 32.) Accordingly, NYAG’s state law
claims alleging violations of civil and criminal usury
laws survive the instant motion.

App-84
3.

Count VIII: Violation of New York
General Obligations Law § 13-101

Defendants argue that the NYAG fails to state a
claim under New York General Obligations Law § 13101, which prohibits the sale or assignment of claims
or demands to recover for personal injury, because the
transactions transfer the rights to proceeds from
claims for personal injury, not the personal injury
claims themselves. N.Y. Gen. Oblig. Law § 13-101;
(Def. Br. 37-38.)
Under N.Y. Gen. Oblig. Law § 13-101(1), a party
may not transfer a “claim or demand” to “recover
damages for a personal injury.” With respect to the
VCF Purchase Agreements, as discussed supra,
Section IV(a)(i)(2), those transactions purport to
transfer Eligible Claimants’ claims for settlement
proceeds under the VCF.
As discussed supra, the term “claim” is defined as
“[t]he assertion of an existing right; any right to
payment or to an equitable remedy, even if contingent
or provisional . . . [a] demand for money, property, or
a legal remedy to which one asserts a right.” Claim,
Black’s Law Dictionary (10th ed. 2014). The plain
language of the Purchase Agreements indicates that
Defendants sought to obtain ownership of Eligible
Claimants’ “claims” to damages for injuries that they
suffered following the September 11, 2001 terrorist
attacks in that they sought to obtain the right to
receive payment directly from the VCF. In sum, the
Complaint alleges adequately facts demonstrating
that the Purchase Agreements transferred a “claim or
demand” to “damages for personal injury” in violation
of N.Y. GBL § 13-101(1).

App-85
Similarly, the NYAG has alleged facts sufficient
to state a claim under Section 13-101(1) of N.Y. GBL
as to the NFL Purchase Agreements. For the reasons
already explained supra, Section IV(a)(i)(1), the NFL
Purchase Agreements purport to assign Class
Members’ full interest in a portion of their settlement
proceeds, including the right to demand payment
directly from the NFL Settlement Administrator. As
such, the Purchase Agreements purport to transfer a
“claim or demand” to “recover damages for personal
injury.” Accordingly, the NYAG has alleged facts
sufficient to state a claim under N.Y. GBL § 13-101(a)
regarding the NFL Purchase Agreements.
4.

Count IX: Violation of New York
General Business Law § 349

“To state a claim for deceptive practices under
section 349, a plaintiff must show: (1) that the act,
practice, or advertisement was consumer-oriented;
(2) that the act, practice, or advertisement was
misleading in a material respect; and (3) that the
plaintiff was injured as a result of the deceptive act,
practice, or advertisement.” Pelman ex rel. Pelman v.
McDonald’s Corp., 396 F. Supp. 2d 439, 444 (S.D.N.Y.
2005).
Under the first prong, “consumer oriented”
conduct is that which “has a broad impact on
consumers at large.” Bennett v. State Farm Fire and
Casualty Co., -- N.Y.S.3d --, 2018 WL 2225321, at *2
(N.Y. App Div. May 16, 2018) (citing Nafash v. Allstate
Ins. Co., 28 N.Y.S.3d 381, 384 (N.Y. App. Div. 2016);
JPMorgan Chase Bank, N.A. v. Hall, 996 N.Y.S.2d
309, 315 (N.Y. App. Div. 2014); Vescon Constr., Inc. v.
Gerelli Ins. Agency, Inc., 948 N.Y.S.2d 636, 638 (N.Y.

App-86
App. Div. 2012); Flax v. Lincoln Natl. Life Ins. Co., 864
N.Y.S.2d 559, 561 (N.Y. App. Div. 2008)). A “single
shot transaction” that is customized to meet the
specific demands of a particular consumer is
insufficient to show that the conduct had a “broad
impact on consumers.” Hall, 996 N.Y.S.2d at 315
(quoting N. State Autobahn, Inc. v. Progressive Ins.
Grp. Co., 953 N.Y.S.2d 96, 102 (N.Y. App. Div. 2012)).
Rather, the conduct must amount to a “standard
practice that was [or is] routinely applied to all
[consumers]” who engaged with the defendant.
N. State Autobahn, 953 N.Y.S.2d at 102.
Under the second prong, the New York Court of
Appeals has defined the term “materially misleading”
conduct using an objective standard under which “the
alleged act must be ‘likely to mislead a reasonable
consumer
acting
reasonably
under
the
circumstances.’” Orlander v. Staples Inc., 802 F.3d
289, 300 (2d Cir. 2015) (quoting Cohen v. JP Morgan
Chase & Co., 498 F.3d 111, 126 (2d Cir. 2007) (quoting
Oswego Laborers’ Local 214 Pension Fund v. Marine
Midland Bank, N.A., 647 N.E. at 745 (“Such a test . . .
may be determined as a matter of law or fact (as
individual cases require).” Koenig v. Boulder Brands,
Inc., 995 F. Supp. 2d 274, 287 (S.D.N.Y. 2014) (quoting
Oswego Laborers’ Local 214 Pension Fund, 647 N.E.2d
at 745).
Applying this framework to the facts of this case,
NYAG has alleged facts sufficient to demonstrate that
Defendants engaged in deceptive practices in violation
of N.Y. GBL § 349. As to the first element, the
averments in the Complaint indicate that Defendants’
conduct was “consumer-oriented” in that Defendants

App-87
made similar statements and representations to all of
the Consumers targeted. Oswego Laborers’ Local 214
Pension Fund, 623 N.Y.S.2d at 745 (holding conduct to
be “consumer-oriented” where defendant Bank
interacted with plaintiffs’ representative the same as
any other customer opening a savings account).
According to the Complaint, the RD Entities represent
to Consumers that the Purchase Agreements are
assignments of Consumers’ interests in their
anticipated settlement payments and are not an offer
of credit, (Compl. ¶ 38); label all of the Purchase
Agreements as “assignment and sale” agreements,
(Compl. ¶ 39-40); and do not disclose interest rates for
transactions to Consumers, (Compl. ¶ 42). These
allegations show that Defendants’ conduct was not
limited to any particular single Consumer but rather
was how Defendants interacted with all Consumers.
Oswego Laborers’ Local 214 Pension Fund, 623
N.Y.S.2d at 745 (citing Genesco Entm’t v. Koch, 593 F.
Supp. 743, 752 (S.D.N.Y. 1984) (finding that conduct
was “consumer-oriented” because it was “not unique”
to the plaintiffs, was not “private in nature” and not a
“single shot transaction”). Accordingly, NYAG has
pled adequately facts indicating the conduct at issue
was “consumer-oriented.”
Turning to the second element of a claim under
N.Y. GBL § 349, NYAG has also alleged adequately
that the RD Entities made misrepresentations that
would be “materially misleading” to a reasonable
consumer. All of the Purchase Agreements contain
numerous statements that the transaction is a “sale”
that transfers all of the rights of ownership in the
Property Amount to the RD Entities, but in reality, the
Consumer is not entitled to assign title and ownership

App-88
over the Property Amount to another. Furthermore,
the Purchase Agreements entail a rate of interest that
would violate New York civil and criminal usury laws
in some instances, rendering the transactions void
under New York law. Such allegations, if true, are
likely to mislead a reasonable consumer as to the
nature, terms, and obligations of the contractual
arrangement in front of him or her. Accordingly, the
NYAG has pleaded facts sufficient to state a claim
under N.Y. GBL § 349.
5.

Count X: Violation of New York
General Business Law § 350

“The standard for recovery under General
Business Law § 350, while specific to false advertising,
is otherwise identical to Section 349.” Austin v. Albany
Law School of Union Univ., 957 N.Y.S.2d 833, 843
(N.Y. Sup. Ct. 2013) (citing Denenberg v. Rosen, 897
N.Y.S.2d 391, 394 (N.Y. App. Div. 2010), lv. dismissed,
930 N.E.2d 762 (N.Y. 2010)). N.Y. GBL § 350 makes
unlawful false advertising “in the conduct of any
business, trade or commerce or in the furnishing of
any service” in New York. N.Y. Gen. Bus. Law § 350.
Because of the commonality in the elements of a claim
under N.Y. GBL § 349 and § 350, the Court draws on
its analysis of NYAG’s Section 349 claim in concluding
that the NYAG has alleged facts sufficient to state a
claim under N.Y. GBL § 350 for false advertising.
In this Complaint, the NYAG alleges that
Defendants falsely advertised their agreements as
sales rather than loans and falsely advertised that
they would be able to expedite Consumers’ payment of
their settlement awards. As discussed earlier, such
advertising is “consumer-oriented” in that the

App-89
Complaint alleges that these representations were
made to all those who visited Defendants’ website or
transacted with Defendants through a Purchase
Agreement. (Compl. ¶¶ 125-26.) Such statements are
also material because they are likely to mislead a
reasonable consumer into believing that the
transactions are true sales or that Defendants had the
ability to expedite payment from the settlement fund
administrators when neither statement is true.
Defendants also argue that these alleged statements
pertain to the “source” of the payments, which is
distinct from the timing of payments and would not be
material to consumers. (Def. Br. 34.) The Court
disagrees. Consumers are individuals who want their
settlement awards quickly because they need access to
liquidity. It does not take a grand leap of imagination
to envision that Consumers may have strained
relations with the claims administrators in seeking
access to their settlement awards. Therefore, if
Consumers were misled into believing that RD would
act as a type of third-party facilitator between the
Consumer and the claims administrator, this
information would be material to the Consumer.
Therefore, the Court concludes that Defendants’
argument is without merit.
Accordingly, the NYAG alleges adequately facts
demonstrating a claim under N.Y. GBL § 350.
6.

Count XI: New York Executive Law
§ 63(12) Fraud

Executive Law § 63(12) empowers the Attorney
General to seek injunctive and other relief whenever a
person or business engages in “repeated . . . or . . .
persistent fraud or illegality.” “Fraud” under § 63(12)

App-90
is not common-law fraud but is statutorily defined
broadly as “any device, scheme or artifice to defraud
and any deception, misrepresentation, concealment,
suppression, false pretense, false promise or
unconscionable contractual provisions.” Conduct
violates Executive Law § 63(12) if it “has the capacity
or tendency to deceive” both the average consumer and
“the ignorant, the unthinking, and the credulous.”
Matter of People v. Applied Card Sys., Inc., 805
N.Y.S.2d 175, 176 (N.Y. App. Div. 2005) (internal
quotation marks and citation omitted). Several cases
have also held that proof of intent to deceive or
reliance are not required to state a claim under N.Y.
Executive Law § 63(12).
Here, because the elements of a claim under
Section 63(12) are entirely encompassed by the
elements of deceptive acts or practices under the
CFPA or NY GOL § 349 that the Government has
already pled adequately, the Complaint contains
sufficient allegations to state a claim under N.Y.
Executive Law § 63(12) as well.
c.

Constitutional Claims
i.

History, Liberty,
Authority

and

Presidential

In reaching the question of the constitutionality of
Title X of Dodd-Frank, which established the CFPB as
an “independent bureau” within the Federal Reserve
System, 12 U.S.C. § 5491(a), the Court acknowledges
the en banc holding of the Court of Appeals for the
District of Columbia Circuit in PHH Corp. v. CFPB,
881 F.3d 75 (D.C. Cir. 2018), upholding the statute. Of

App-91
course, that decision is not binding on this Court. 7
Respectfully, the Court disagrees with the holding of
the en banc court and instead adopts Sections I-IV of
Judge Brett Kavanaugh’s dissent (joined in by Senior
Circuit Judge A. Raymond Randolph), where, based on
considerations of history, liberty, and presidential
authority, Judge Kavanaugh concluded that the CFPB
“is unconstitutionally structured because it is an
independent agency that exercises substantial
executive power and is headed by a single Director.”
Id. at 198.
Also most respectfully, the Court disagrees with
Section V of Judge Kavanaugh’s opinion wherein he
determined the remedy to be to “invalidate and sever
the for-cause removal provision and hold that the
Director of the CFPB may be supervised, directed, and
Other courts have also addressed this question. CFPB v. TCF
Nat’l Bank, No. 17-166 (RHK/DTS), 2017 WL 6211033 (D. Minn.
Sept. 8, 2017); CFPB v. Seila Law, LLC, No. 17-CV-01081-JLSJEM, 2017 WL 6536586 (C.D. Cal. Aug. 25, 2017), appeal filed,
No. 17-56324 (9th Cir.); CFPB v. Navient Corp., No. 3:17-CV-101,
2017 WL 3380530 (M.D. Pa. Aug. 4, 2017); CFPB v. Future
Income Payments, LLC, 252 F. Supp. 3d 961 (C.D. Cal. 2017),
appeal filed, No. 17-55721 (9th Cir.); CFPB v. D & D Mktg., Inc.,
No. CV 15-9692 PSG (EX), 2017 WL 5974248 (C.D. Cal. Mar. 21,
2017), interlocutory appeal granted, No. 17-55709 (9th Cir.);
CFPB v. CashCall, Inc., No. CV-15-7522-JFW-RAOx, 2016 WL
4820635 (C.D. Cal. Aug. 31, 2016), appeal filed, 18-55479 (9th
Cir.); CFPB v. NDG Fin. Corp., No. 15-CV-5211 (CM), 2016 WL
7188792 (S.D.N.Y. Dec. 2, 2016), mot. reconsideration denied, No.
15-CV-5211 (CM), 2016 WL 7742784 (S.D.N.Y. Dec. 19, 2016);
CFPB v. ITT Educ. Servs., Inc., 219 F. Supp. 3d 878 (S.D. Ind.
2015), appeal dismissed for lack of jurisdiction, 15-1761 (7th Cir.
2016); CFPB v. Frederick J. Hanna & Assocs., P.C., 114 F. Supp.
3d 1342 (N.D. Ga. 2015); CFPB v. Morgan Drexen, Inc., 60 F.
Supp. 3d 1082 (C.D. Cal. 2014).
7

App-92
removed at will by the President.” Id. at 200. Instead,
the Court adopts Section II of Judge Karen LeCraft
Henderson’s dissent wherein she opined that “the
presumption of severability is rebutted here. A
severability clause ‘does not give the court power to
amend’ a statute. Nor is it a license to cut out the
‘heart’ of a statute. Because section 5491(c)(3) is at the
heart of Title X [Dodd Frank], I would strike Title X in
its entirety.” Id. at 163-64 (citations omitted).
ii.

CFPB’s Notice of Ratification

On May 11, 2018, the CFPB filed a Notice of
Ratification (“Ratification”) with the Court in response
to Defendants’ constitutional challenge to the forcause removal provision of the CFPB’s enabling
statute. In the Ratification, the CFPB attempts to
ratify its decision to file this enforcement decision
prior to the appointment of the CFPB’s Acting
Director, Mick Mulvaney, on November 24, 2017.
(Notice of Ratification (hereinafter, Ratification) 1.)
Because the President may remove Mr. Mulvaney at
will, the CFPB asserts that Defendants may not
obtain dismissal on the grounds that the instant
action was initially filed by a Director at the CFPB
removable only for cause. (Ratification 3.)
As Defendants note, ratification is a principle of
agency law. (Defendants’ Opp’n to Ratification (“Ratif.
Opp’n”) 2, ECF No. 79.) Ratification addresses
situations in which an agent was without authority at
the time he or she acted and the principal later
approved of the agent’s prior unauthorized acts. See
GDG Acquisitions LLC v. Government of Belize, 849
F.3d 1299, 1310 (11th Cir. 2017) (noting that
ratification assumes that the agent “did not have

App-93
actual authority at the time he acted”); Wilkes-Barre
Hosp. Co. v. NLRB, 857 F.3d 364, 371 (D.C. Cir. 2017)
(explaining role of principal that ratifies prior
unauthorized acts of agent).
The Court agrees with Defendants that the
CFPB’s Ratification does not address accurately the
constitutional issue raised in this case, which concerns
the structure and authority of the CFPB itself, not the
authority of an agent to make decisions on the CFPB’s
behalf. See CFPB v. Gordon, 819 F.3d 1179, 1192 (9th
Cir. 2016) (holding, after invalidation of CFPB
Director’s recess appointment, that the Director’s
“ratification, done after he was properly appointed as
Director, resolves any Appointments Clause
deficiencies”); Wilkes-Barre Hosp. Co. v. NLRB, 857
F.3d 364, 371 (D.C. Cir. 2017) (holding, after
invalidation of Board members’ recess appointments,
that NLRB properly ratified the appointment of its
Regional Director who, in turn, ratified his prior
unauthorized actions); Advanced Disposal Servs. East,
Inc. v. NLRB, 820 F.3d 592, 605-06 (3d Cir. 2016)
(same).
Here, the constitutional issues presented by the
structure of the CFPB are not cured by the
appointment of Mr. Mulvaney. As Defendants point
out, the relevant provisions of the Dodd-Frank Act
that render the CFPB’s structure unconstitutional
remain intact. (Ratification 4.) Furthermore, Mr.
Mulvaney cannot serve past June 22, 2018 (210 days
after the vacancy arose), unless the President
nominates a new Director, and then only until the new
Director is appointed. Thus, there will likely be a new
Director appointed in the coming months who will be

App-94
subject to the for-cause removal provision. Therefore,
the Ratification does not cure the constitutional
deficiencies with the CFPB’s structure as the CFPB
argues. Accordingly, the Court rejects the Notice of
Ratification (ECF No. 78) to the extent the CFPB
argues that the Ratification renders Defendants’
constitutional arguments moot. Accordingly, the
Court finds that the CFPB “lacks authority to bring
this enforcement action because its composition
violates the Constitution’s separation of powers,” and
thus the CFPB’s claims are dismissed. Fed. Election
Comm’n v. NRA Political Victory Fund, 6 F.3d 821,
822 (D.C. Cir. 1993).
d. Conclusion
For the foregoing reasons, Defendants’ motion
(ECF No. 39) is DENIED. Because Plaintiff Consumer
Financial Protection Bureau is unconstitutionally
structured and lacks authority to bring claims under
the CFPA, the Clerk of Court shall terminate Plaintiff
Consumer Financial Protection Bureau as a party to
this action.
Counsel shall confer and inform the Court by
letter no later than July 9 how they propose to
proceed.

App-95
SO ORDERED.
Dated:

New York, New York
June 21, 2018

_____________________________
LORETTA A. PRESKA
Senior United States District Judge

App-96
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK
________________
No. 17-cv-890 (LAP)
________________
CONSUMER FINANCIAL PROTECTION BUREAU and
THE PEOPLE OF THE STATE OF NEW YORK,
by Eric T. Schneiderman, Attorney General
for the State of New York,
v.

Plaintiffs,

RD LEGAL FUNDING, LLC; RD LEGAL FINANCE, LLC;
RD LEGAL FUNDING PARTNERS, LP; RONI DERSOVITZ,
Defendants.
________________
Filed September 12, 2018
Document 105
________________
ORDER
Loretta A. Preska, Senior United States District
Judge:
Taking into account the parties’ recent
correspondence regarding the Court’s subject matter
jurisdiction over the remaining CFPA claims in this
case, the Court hereby amends its ruling in the June
21, 2018 Order, (ECF No. 80), as follows. The
conclusions of law in this order supersede and replace
any legal conclusions to the contrary in the June 21,
2018 Order:

App-97
I.

NYAG’s CFPA Claims

In light of the Court’s decision that the
appropriate remedy for Title X’s unconstitutional forcause removal provision is invalidating Title X in its
entirety, it follows that there is no statute for the
NYAG to proceed under and no grant of authority to
proceed. In sum, there is no basis for federal
jurisdiction over NYAG’s CFPA claims. Accordingly,
these claims must be dismissed. Fed. R. Civ. P.
12(h)(3).
Given that there is no basis for federal jurisdiction
in NYAG’s CFPA causes of action, 28 U.S.C. § 1367(a)
no longer serves as an appropriate procedural vehicle
for this Court to exercise supplemental jurisdiction
over NYAG’s state law claims.
II. Federal Jurisdiction and NYAG’s State Law
Claims
NYAG argues that its state law claims raise
issues involving the federal Anti-Assignment Act,
thereby giving rise to federal question jurisdiction
over these same claims. (See ECF No. 93). The Court
concludes that there is no “substantial” federal issue
embedded in NYAG’s state law claims that would give
rise to federal question jurisdiction over those same
state law claims, notwithstanding the inapplicability
of 28 U.S.C. § 1367(a). Pritika v. Moore, 91 F. Supp. 3d
553, 558 (S.D.N.Y. 2015).
“[C]ourts have typically found a substantial
federal issue only in those exceptional cases that go
beyond the application of some federal legal standard
to private litigants’ state law claims, and instead
implicate broad consequences to the federal system or
the nation as a whole.” Pritika, 91 F. Supp. 3d at 558.

App-98
Here, certain of NYAG’s state law claims turn on
alleged violations of the federal Anti-Assignment Act.
See 31 U.S.C. § 3727; (Compl., Counts VI-XI) The
question of whether victims’ purported assignment of
their monetary awards from the September 11th
Victim Compensation Fund (“VCF”) violates the AntiAssignment Act does not “implicate broad
consequences to the federal system or the nation as a
whole.” Pritika, 91 F. Supp. 3d at 558 (citing Smith v.
Kan. City Title & Trust Co., 255 U.S. 180, 201 (1921));
see also Broder v. Cablevision Sys. Corp., 418 F.3d 187,
195 (2d Cir. 2005) (concluding that a federal issue is
substantial if it implicates a “complex federal
regulatory scheme”); In re Facebook, Inc., IPO Sec. and
Derivative Litig., 922 F. Supp. 2d 475, 482-83
(S.D.N.Y. 2013) (holding that questions of whether
NASDAQ, a national securities exchange, complied
with its regulatory obligations under federal law and
what duties NASDAQ had as a national securities
exchange to “members of the investing public”
involved a substantial federal interest).
The VCF touches and concerns the nation and
federal system to the extent that it is funded through
taxpayer dollars at the federal level. However, the
question of what parties may do with their award
money does not raise “broad consequences to the
federal system or the nation.” Pritika, 91 F. Supp. 3d
at 558. The validity of the assignments of monetary
awards from the VCF is a particularized issue that
involves a discrete pool of individuals. The question of
whether the Anti-Assignment Act prohibits victims
from assignment their monetary awards from the VCF
does not implicate constitutional issues and does not
involve a determination of a federal agency’s

App-99
obligations under federal law. Grable & Sons Metal
Products, Inc. v. Darue Eng’g & Mfg., 545 U.S. 308,
315 (2005). In sum, the question that the AntiAssignment Act raises in this case does not have the
required “significan[ce] . . . to the federal system as a
whole,” Gunn v. Minton, 568 U.S. 251, 264 (2013).
Accordingly, NYAG’s state law claims do not present
a “substantial” federal issue giving rise to federal
jurisdiction.
An upset in the division of federal and state
jurisdiction would also ensue if the Court exercised
jurisdiction over NYAG’s state law claims. Counts VIXI in the Complaint are premised on New Yrok
consumer protection statutes that involve application
of New York contract law and New York usury law.
Principles of comity dictate that state courts should
resolve questions of state law. Chenensky v. New York
Life Ins. Co., 942 F. Supp. 2d 388, 395 (S.D.N.Y. 2013).
New York courts have also proven that they are more
than capable of deciding cases that implicate the AntiAssignment Act. See, e.g., Leonard v. Whaley, 36
N.Y.S. 147 (Sup. Ct. 1985); Coastal Commercial Corp.
v. Central Nat. Bank of Yonders, 140 N.Y.S.2d 887
(Sup. Ct. 1955).
Accordingly, NYAG’s remaining state law claims
do not raise a “substantial” issue of federal law that
justifies this Court’s exercising jurisdiction over those
claims. Grable, 545 U.S. at 313-14.
III. Supplemental Jurisdiction and NYAG’s State
Law Claims
The Court also declines to exercise supplemental
jurisdiction over NYAG’s state law claims under 28
U.S.C. § 1367(c)(3). In determining whether to

App-100
exercise supplemental jurisdiction over remaining
state law claims after the dismissal of all federal law
causes of action, a district court must balance the
objectives of “judicial economy, convenience, fairness,
and comity.” Kolari v. New York-Presbyterian Hosp.,
455 F.3d 118, 122 (2d Cir. 2006) (quoting CarnegieMellon Univ. v. Cohill, 484 U.S. 343, 350 (1988)). “[I]n
the usual case in which all federal-law claims are
eliminated before trial, the balance of factors . . . will
point toward declining to exercise jurisdiction over the
remaining state-law claims.” Id. (quoting Cohill, 484
U.S. at 350 n.7).
In this case, each of these factors weighs in favor
of denying supplemental jurisdiction. As discussed
above, allowing New York state courts to resolve
issues involving only New York law furthers “a proper
respect for state functions” as comity requires.
Chenensky, 942 F. Supp. 2d at 395 (S.D.N.Y. 2013)
(quoting Levin v. Commerce Energy, Inc., 560 U.S. 413,
421 (2010)). The present posture of the case—mainly,
the fact that no discovery has been conducted yet—
also means that “neither party will be significantly
inconvenienced or prejudiced if the plaintiff[] refile[s]
in state court.” Young Kui Chen v. Wai ? Café Inc., 10
Civ. 7254 (JCF), 2017 WL 3311228, at *4 (S.D.N.Y.
Aug. 2, 2017). This Court has only decided RD Legal’s
motion to dismiss thus far, and therefore the state
court would not be substantially duplicating extensive
efforts that this Court has already undertaken to
oversee the case. See Chenensky, 942 F. Supp. 2d at
392.

App-101
Accordingly, the Court declines to exercise
supplemental jurisdiction over the NYAG’s remaining
state law claims.
IV.

Conclusion

In summary, the Court amends its June 21, 2018
Order, (ECF No. 80), and concludes that:
(1) The proper remedy for the constitutional issue
raised by Title X’s for-cause removal provision
is to invalidate Title X in its entirety;
(2) this remedy invalidates the statutory bases for
NYAG’s independent litigating authority
under the CFPA and its CFPA claims in this
case;
(3) for the reasons stated in point (2), the NYAG’s
CFPA claims must be dismissed for lack of
federal jurisdiction, Fed. R. Civ. P. 12(h)(3);
(4) the NYAG’s remaining state law claims do not
present a “substantial question” of federal law
giving rise to federal jurisdiction; and
(5) the Court declines to exercise supplemental
jurisdiction over NYAG’s remaining state law
claims under 28 U.S.C. § 1367(c)(3).
For the foregoing reasons, all of the NYAG’s state
law claims are dismissed without prejudice to refiling
in state court.
The Clerk of Court is directed to enter judgment
(1) dismissing the NYAG’s CFPA claims against
Defendants without prejudice, and (2) dismissing the
NYAG’s state law claims without prejudice.
The Clerk of Court shall mark this action closed
and all pending motions denied as moot.

App-102
SO ORDERED.
Dated:

New York, New York
September 12, 2018

_____________________________
LORETTA A. PRESKA
Senior United States District Judge

App-103
Appendix C
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________
Nos. 18-2743-cv(L)
18-3033 (Con), 18-2860 (XAP), 18-3156 (XAP)
________________
CONSUMER FINANCIAL PROTECTION BUREAU,
Plaintiff-Appellant-Cross Appellee,
PEOPLE OF THE STATE OF NEW YORK, by Letitia
James, Attorney General for the State of New York,
Plaintiff-Appellant-Cross Appellee,
v.
RD LEGAL FUNDING, LLC, RD LEGAL FUNDING
PARTNERS, LP, RD LEGAL FINANCE, LLC,
RONI DERSOVITZ,
Defendants-Third Party Plaintiffs-Third
Party Defendants-Appellees-Cross
Appellants.
________________
Filed January 14, 2021
Document 267
________________
ORDER
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 14th day of January,
two thousand twenty-one.

App-104
Appellees-Cross-Appellants filed a petition for
panel rehearing, or, in the alternative, for rehearing
en banc. The panel that determined the appeal has
considered the request for panel rehearing, and the
active members of the Court have considered the
request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

App-105
Appendix D
Relevant Constitutional Provision & Statutes
U.S. Const. art. II, § 1, cl. 1
The executive Power shall be vested in a President of
the United States of America. He shall hold his Office
during the Term of four Years, and, together with the
Vice President, chosen for the same Term, be elected,
as follows:

App-106
12 U.S.C. § 5491(c)
(c) Term
(1) In general
The Director shall serve for a term of 5 years.
(2) Expiration of term
An individual may serve as Director after the
expiration of the term for which appointed, until a
successor has been appointed and qualified.
(3) Removal for cause
The President may remove the Director for
inefficiency, neglect of duty, or malfeasance in office.

App-107
12 U.S.C. § 5562
Investigations and administrative discovery
(a) Joint investigations
(1) In general
The Bureau or, where appropriate, a Bureau
investigator, may engage in joint investigations
and requests for information, as authorized under
this title.1
(2) Fair lending
The authority under paragraph (1) includes
matters relating to fair lending, and where
appropriate, joint investigations with, and
requests for information from, the Secretary of
Housing and Urban Development, the Attorney
General of the United States, or both.
(b) Subpoenas
(1) In general
The Bureau or a Bureau investigator may
issue subpoenas for the attendance and testimony
of witnesses and the production of relevant
papers, books, documents, or other material in
connection with hearings under this title.1
(2) Failure to obey
In the case of contumacy or refusal to obey a
subpoena issued pursuant to this paragraph and
served upon any person, the district court of the
United States for any district in which such
person is found, resides, or transacts business,
upon application by the Bureau or a Bureau
investigator and after notice to such person, may
issue an order requiring such person to appear

App-108
and give testimony or to appear and produce
documents or other material.
(3) Contempt
Any failure to obey an order of the court
under this subsection may be punished by the
court as a contempt thereof.
(c) Demands
(1) In general
Whenever the Bureau has reason to believe
that any person may be in possession, custody, or
control of any documentary material or tangible
things, or may have any information, relevant to
a violation, the Bureau may, before the institution
of any proceedings under the Federal consumer
financial law, issue in writing, and cause to be
served upon such person, a civil investigative
demand requiring such person to—
(A) produce such documentary material
for inspection and copying or reproduction in
the form or medium requested by the Bureau;
(B) submit such tangible things;
(C) file written reports or answers to
questions;
(D) give oral testimony concerning
documentary material, tangible things, or
other information; or
(E) furnish any combination of such
material, answers, or testimony.
(2) Requirements
Each civil investigative demand shall state
the nature of the conduct constituting the alleged

App-109
violation which is under investigation and the
provision of law applicable to such violation.
(3) Production of documents
Each civil investigative demand for the
production of documentary material shall—
(A) describe each class of documentary
material to be produced under the demand
with such definiteness and certainty as to
permit such material to be fairly identified;
(B) prescribe a return date or dates which
will provide a reasonable period of time within
which the material so demanded may be
assembled and made available for inspection
and copying or reproduction; and
(C) identify the custodian to whom such
material shall be made available.
(4) Production of things
Each civil investigative demand for the
submission of tangible things shall—
(A) describe each class of tangible things
to be submitted under the demand with such
definiteness and certainty as to permit such
things to be fairly identified;
(B) prescribe a return date or dates which
will provide a reasonable period of time within
which the things so demanded may be
assembled and submitted; and
(C) identify the custodian to whom such
things shall be submitted.

App-110
(5) Demand for written reports or answers
Each civil investigative demand for written
reports or answers to questions shall—
(A) propound with definiteness and
certainty the reports to be produced or the
questions to be answered;
(B) prescribe a date or dates at which
time written reports or answers to questions
shall be submitted; and
(C) identify the custodian to whom such
reports or answers shall be submitted.
(6) Oral testimony
Each civil investigative demand for the giving
of oral testimony shall—
(A) prescribe a date, time, and place at
which oral testimony shall be commenced;
and
(B) identify a Bureau investigator who
shall conduct the investigation and the
custodian to whom the transcript of such
investigation shall be submitted.
(7) Service
Any civil investigative demand issued, and
any enforcement petition filed, under this section
may be served—
(A) by any Bureau investigator at any
place within the territorial jurisdiction of any
court of the United States; and
(B) upon any person who is not found
within the territorial jurisdiction of any court
of the United States—

App-111
(i) in such manner as the Federal
Rules of Civil Procedure prescribe for
service in a foreign nation; and
(ii) to the extent that the courts of the
United States have authority to assert
jurisdiction over such person, consistent
with due process, the United States
District Court for the District of Columbia
shall have the same jurisdiction to take
any action respecting compliance with
this section by such person that such
district court would have if such person
were personally within the jurisdiction of
such district court.
(8) Method of service
Service of any civil investigative demand or
any enforcement petition filed under this section
may be made upon a person, including any legal
entity, by—
(A) delivering a duly executed copy of
such demand or petition to the individual or
to any partner, executive officer, managing
agent, or general agent of such person, or to
any agent of such person authorized by
appointment or by law to receive service of
process on behalf of such person;
(B) delivering a duly executed copy of
such demand or petition to the principal office
or place of business of the person to be served;
or
(C) depositing a duly executed copy in the
United States mails, by registered or certified

App-112
mail, return receipt requested, duly addressed
to such person at the principal office or place
of business of such person.
(9) Proof of service
(A) In general
A verified return by the individual
serving any civil investigative demand or any
enforcement petition filed under this section
setting forth the manner of such service shall
be proof of such service.
(B) Return receipts
In the case of service by registered or
certified mail, such return shall be
accompanied by the return post office receipt
of delivery of such demand or enforcement
petition.
(10) Production of documentary material
The production of documentary material in
response to a civil investigative demand shall be
made under a sworn certificate, in such form as
the demand designates, by the person, if a natural
person, to whom the demand is directed or, if not
a natural person, by any person having knowledge
of the facts and circumstances relating to such
production, to the effect that all of the
documentary material required by the demand
and in the possession, custody, or control of the
person to whom the demand is directed has been
produced and made available to the custodian.

App-113
(11) Submission of tangible things
The submission of tangible things in response
to a civil investigative demand shall be made
under a sworn certificate, in such form as the
demand designates, by the person to whom the
demand is directed or, if not a natural person, by
any person having knowledge of the facts and
circumstances relating to such production, to the
effect that all of the tangible things required by
the demand and in the possession, custody, or
control of the person to whom the demand is
directed have been submitted to the custodian.
(12) Separate answers
Each reporting requirement or question in a
civil investigative demand shall be answered
separately and fully in writing under oath, unless
it is objected to, in which event the reasons for the
objection shall be stated in lieu of an answer, and
it shall be submitted under a sworn certificate, in
such form as the demand designates, by the
person, if a natural person, to whom the demand
is directed or, if not a natural person, by any
person responsible for answering each reporting
requirement or question, to the effect that all
information required by the demand and in the
possession, custody, control, or knowledge of the
person to whom the demand is directed has been
submitted.

App-114
(13) Testimony
(A) In general
(i) Oath and recordation
The examination of any person
pursuant to a demand for oral testimony
served under this subsection shall be
taken before an officer authorized to
administer oaths and affirmations by the
laws of the United States or of the place at
which the examination is held. The officer
before whom oral testimony is to be taken
shall put the witness on oath or
affirmation and shall personally, or by
any individual acting under the direction
of and in the presence of the officer, record
the testimony of the witness.
(ii) Transcription
The testimony shall be
stenographically and transcribed.

taken

(iii) Transmission to custodian
After the testimony is fully
transcribed, the officer investigator before
whom the testimony is taken shall
promptly transmit a copy of the transcript
of the testimony to the custodian.
(B) Parties present
Any Bureau investigator before whom
oral testimony is to be taken shall exclude
from the place where the testimony is to be
taken all other persons, except the person
giving the testimony, the attorney for that

App-115
person, the officer before whom the testimony
is to be taken, an investigator or
representative of an agency with which the
Bureau is engaged in a joint investigation,
and any stenographer taking such testimony.
(C) Location
The oral testimony of any person taken
pursuant to a civil investigative demand shall
be taken in the judicial district of the United
States in which such person resides, is found,
or transacts business, or in such other place
as may be agreed upon by the Bureau
investigator before whom the oral testimony
of such person is to be taken and such person.
(D) Attorney representation
(i) In general
Any person compelled to appear
under a civil investigative demand for oral
testimony pursuant to this section may be
accompanied, represented, and advised by
an attorney.
(ii) Authority
The attorney may advise a person
described in clause (i), in confidence,
either upon the request of such person or
upon the initiative of the attorney, with
respect to any question asked of such
person.
(iii) Objections
A person described in clause (i), or the
attorney for that person, may object on the

App-116
record to any question, in whole or in part,
and such person shall briefly state for the
record the reason for the objection. An
objection may properly be made, received,
and entered upon the record when it is
claimed that such person is entitled to
refuse to answer the question on grounds
of any constitutional or other legal right
or privilege, including the privilege
against self-incrimination, but such
person shall not otherwise object to or
refuse to answer any question, and such
person or attorney shall not otherwise
interrupt the oral examination.
(iv) Refusal to answer
If a person described in clause (i)
refuses to answer any question—
(I) the Bureau may petition the
district court of the United States
pursuant to this section for an order
compelling such person to answer
such question; and
(II) if the refusal is on grounds of
the
privilege
against
selfincrimination, the testimony of such
person may be compelled in
accordance with the provisions of
section 6004 of title 18.
(E) Transcripts
For purposes of this subsection—
is

(i) after the testimony of any witness
fully transcribed, the Bureau

App-117
investigator shall afford the witness (who
may be accompanied by an attorney) a
reasonable opportunity to examine the
transcript;
(ii) the transcript shall be read to or
by the witness, unless such examination
and reading are waived by the witness;
(iii) any changes in form or substance
which the witness desires to make shall be
entered and identified upon the transcript
by the Bureau investigator, with a
statement of the reasons given by the
witness for making such changes;
(iv) the transcript shall be signed by
the witness, unless the witness in writing
waives the signing, is ill, cannot be found,
or refuses to sign; and
(v) if the transcript is not signed by
the witness during the 30-day period
following the date on which the witness is
first afforded a reasonable opportunity to
examine the transcript, the Bureau
investigator shall sign the transcript and
state on the record the fact of the waiver,
illness, absence of the witness, or the
refusal to sign, together with any reasons
given for the failure to sign.
(F) Certification by investigator
The Bureau investigator shall certify on
the transcript that the witness was duly
sworn by him or her and that the transcript is
a true record of the testimony given by the

App-118
witness, and the Bureau investigator shall
promptly deliver the transcript or send it by
registered or certified mail to the custodian.
(G) Copy of transcript
The Bureau investigator shall furnish a
copy of the transcript (upon payment of
reasonable charges for the transcript) to the
witness only, except that the Bureau may for
good cause limit such witness to inspection of
the official transcript of his testimony.
(H) Witness fees
Any witness appearing for the taking of
oral testimony pursuant to a civil
investigative demand shall be entitled to the
same fees and mileage which are paid to
witnesses in the district courts of the United
States.
(d) Confidential treatment of demand material
(1) In general
Documentary materials and tangible things
received as a result of a civil investigative demand
shall be subject to requirements and procedures
regarding confidentiality, in accordance with
rules established by the Bureau.
(2) Disclosure to Congress
No rule established by the Bureau regarding
the confidentiality of materials submitted to, or
otherwise obtained by, the Bureau shall be
intended to prevent disclosure to either House of
Congress or to an appropriate committee of the
Congress, except that the Bureau is permitted to

App-119
adopt rules allowing prior notice to any party that
owns or otherwise provided the material to the
Bureau and had designated such material as
confidential.
(e) Petition for enforcement
(1) In general
Whenever any person fails to comply with any
civil investigative demand duly served upon him
under this section, or whenever satisfactory
copying or reproduction of material requested
pursuant to the demand cannot be accomplished
and such person refuses to surrender such
material, the Bureau, through such officers or
attorneys as it may designate, may file, in the
district court of the United States for any judicial
district in which such person resides, is found, or
transacts business, and serve upon such person, a
petition for an order of such court for the
enforcement of this section.
(2) Service of process
All process of any court to which application
may be made as provided in this subsection may
be served in any judicial district.
(f) Petition for order modifying or setting aside
demand
(1) In general
Not later than 20 days after the service of any
civil investigative demand upon any person under
subsection (b), or at any time before the return
date specified in the demand, whichever period is
shorter, or within such period exceeding 20 days
after service or in excess of such return date as

App-120
may be prescribed in writing, subsequent to
service, by any Bureau investigator named in the
demand, such person may file with the Bureau a
petition for an order by the Bureau modifying or
setting aside the demand.
(2) Compliance during pendency
The time permitted for compliance with the
demand in whole or in part, as determined proper
and ordered by the Bureau, shall not run during
the pendency of a petition under paragraph (1) at
the Bureau, except that such person shall comply
with any portions of the demand not sought to be
modified or set aside.
(3) Specific grounds
A petition under paragraph (1) shall specify
each ground upon which the petitioner relies in
seeking relief, and may be based upon any failure
of the demand to comply with the provisions of
this section, or upon any constitutional or other
legal right or privilege of such person.
(g) Custodial control
At any time during which any custodian is in
custody or control of any documentary material,
tangible things, reports, answers to questions, or
transcripts of oral testimony given by any person in
compliance with any civil investigative demand, such
person may file, in the district court of the United
States for the judicial district within which the office
of such custodian is situated, and serve upon such
custodian, a petition for an order of such court
requiring the performance by such custodian of any

App-121
duty imposed upon him by this section or rule
promulgated by the Bureau.
(h) Jurisdiction of court
(1) In general
Whenever any petition is filed in any district
court of the United States under this section, such
court shall have jurisdiction to hear and
determine the matter so presented, and to enter
such order or orders as may be required to carry
out the provisions of this section.
(2) Appeal
Any final order entered as described in
paragraph (1) shall be subject to appeal pursuant
to section 1291 of title 28.

App-122
12 U.S.C. § 5564
Litigation authority
(a) In general
If any person violates a Federal consumer
financial law, the Bureau may, subject to sections
5514, 5515, and 5516 of this title, commence a civil
action against such person to impose a civil penalty or
to seek all appropriate legal and equitable relief
including a permanent or temporary injunction as
permitted by law.
(b) Representation
The Bureau may act in its own name and through
its own attorneys in enforcing any provision of this
title,1 rules thereunder, or any other law or
regulation, or in any action, suit, or proceeding to
which the Bureau is a party.
(c) Compromise of actions
The Bureau may compromise or settle any action
if such compromise is approved by the court.
(d) Notice to the Attorney General
(1) In general
When commencing a civil action under
Federal consumer financial law, or any rule
thereunder, the Bureau shall notify the Attorney
General and, with respect to a civil action against
an insured depository institution or insured credit
union, the appropriate prudential regulator.

App-123
(2) Notice and coordination
(A) Notice of other actions
In addition to any notice required under
paragraph (1), the Bureau shall notify the
Attorney General concerning any action, suit,
or proceeding to which the Bureau is a party,
except an action, suit, or proceeding that
involves the offering or provision of consumer
financial products or services.
(B) Coordination
In order to avoid conflicts and promote
consistency regarding litigation of matters
under Federal law, the Attorney General and
the Bureau shall consult regarding the
coordination
of
investigations
and
proceedings, including by negotiating an
agreement for coordination by not later than
180 days after the designated transfer date.
The agreement under this subparagraph shall
include provisions to ensure that parallel
investigations and proceedings involving the
Federal consumer financial laws are
conducted in a manner that avoids conflicts
and does not impede the ability of the
Attorney General to prosecute violations of
Federal criminal laws.
(C) Rule of construction
Nothing in this paragraph shall be
construed to limit the authority of the Bureau
under this title,1 including the authority to
interpret Federal consumer financial law.

App-124
(e) Appearance before the Supreme Court
The Bureau may represent itself in its own name
before the Supreme Court of the United States,
provided that the Bureau makes a written request to
the Attorney General within the 10-day period which
begins on the date of entry of the judgment which
would permit any party to file a petition for writ of
certiorari, and the Attorney General concurs with
such request or fails to take action within 60 days of
the request of the Bureau.
(f) Forum
Any civil action brought under this title 1 may be
brought in a United States district court or in any
court of competent jurisdiction of a state in a district
in which the defendant is located or resides or is doing
business, and such court shall have jurisdiction to
enjoin such person and to require compliance with any
Federal consumer financial law.
(g) Time for bringing action
(1) In general
Except as otherwise permitted by law or
equity, no action may be brought under this title
1 more than 3 years after the date of discovery of
the violation to which an action relates.
(2) Limitations under other Federal laws
(A) In general
An action arising under this title 1 does
not include claims arising solely under
enumerated consumer laws.

App-125
(B) Bureau authority
In any action arising solely under an
enumerated consumer law, the Bureau may
commence, defend, or intervene in the action
in accordance with the requirements of that
provision of law, as applicable.
(C) Transferred authority
In any action arising solely under laws for
which authorities were transferred under
subtitles F and H, the Bureau may commence,
defend, or intervene in the action in
accordance with the requirements of that
provision of law, as applicable.

App-126
12 U.S.C. § 5565
Relief available
(a) Administrative proceedings or court actions
(1) Jurisdiction
The court (or the Bureau, as the case may be)
in an action or adjudication proceeding brought
under Federal consumer financial law, shall have
jurisdiction to grant any appropriate legal or
equitable relief with respect to a violation of
Federal consumer financial law, including a
violation of a rule or order prescribed under a
Federal consumer financial law.
(2) Relief
Relief under this section may include,
without limitation—
(A) rescission or reformation of contracts;
(B) refund of moneys or return of real
property;
(C) restitution;
(D) disgorgement or compensation for
unjust enrichment;
(E) payment
monetary relief;

of

damages

or

other

(F) public notification regarding the
violation, including the costs of notification;
(G) limits on the activities or functions of
the person; and
(H) civil money penalties, as set forth
more fully in subsection (c).

App-127
(3) No exemplary or punitive damages
Nothing in this subsection shall be construed
as authorizing the imposition of exemplary or
punitive damages.
(b) Recovery of costs
In any action brought by the Bureau, a State
attorney general, or any State regulator to enforce any
Federal consumer financial law, the Bureau, the State
attorney general, or the State regulator may recover
its costs in connection with prosecuting such action if
the Bureau, the State attorney general, or the State
regulator is the prevailing party in the action.
(c) Civil money penalty in court and administrative
actions
(1) In general
Any person that violates, through any act or
omission, any provision of Federal consumer
financial law shall forfeit and pay a civil penalty
pursuant to this subsection.
(2) Penalty amounts
(A) First tier
For any violation of a law, rule, or final
order or condition imposed in writing by the
Bureau, a civil penalty may not exceed $5,000
for each day during which such violation or
failure to pay continues.
(B) Second tier
Notwithstanding paragraph (A), for any
person that recklessly engages in a violation
of a Federal consumer financial law, a civil

App-128
penalty may not exceed $25,000 for each day
during which such violation continues.
(C) Third tier
Notwithstanding subparagraphs (A) and
(B), for any person that knowingly violates a
Federal consumer financial law, a civil
penalty may not exceed $1,000,000 for each
day during which such violation continues.
(3) Mitigating factors
In determining the amount of any penalty
assessed under paragraph (2), the Bureau or the
court shall take into account the appropriateness
of the penalty with respect to—
(A) the size of financial resources and
good faith of the person charged;
(B) the gravity of the violation or failure
to pay;
(C) the severity of the risks to or losses of
the consumer, which may take into account
the number of products or services sold or
provided;
(D) the history of previous violations; and
(E) such other matters as justice may
require.
(4) Authority to modify or remit penalty
The Bureau may compromise, modify, or
remit any penalty which may be assessed or had
already been assessed under paragraph (2). The
amount of such penalty, when finally determined,
shall be exclusive of any sums owed by the person
to the United States in connection with the costs

App-129
of the proceeding, and may be deducted from any
sums owing by the United States to the person
charged.
(5) Notice and hearing
No civil penalty may be assessed under this
subsection with respect to a violation of any
Federal consumer financial law, unless—
(A) the Bureau gives notice and an
opportunity for a hearing to the person
accused of the violation; or
(B) the appropriate court has ordered
such assessment and entered judgment in
favor of the Bureau.

